<html>
<title> - NATIONAL FIRE PLAN IMPLEMENTATION</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]






 
                   NATIONAL FIRE PLAN IMPLEMENTATION

=======================================================================

                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             March 8, 2001

                               __________

                            Serial No. 107-3

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
 70-955 DTP                 WASHINGTON : 2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001




                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   Edward J. Markey, Massachusetts
  Vice Chairman                      Dale E. Kildee, Michigan
W.J. "Billy" Tauzin, Louisiana       Peter A. DeFazio, Oregon
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Joel Hefley, Colorado                Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Robert A. Underwood, Guam
Richard W. Pombo, California         Adam Smith, Washington
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
George Radanovich, California            Islands
Walter B. Jones, Jr., North          Ron Kind, Wisconsin
    Carolina                         Jay Inslee, Washington
Mac Thornberry, Texas                Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Bob Schaffer, Colorado               Rush D. Holt, New Jersey
Jim Gibbons, Nevada                  James P. McGovern, Massachusetts
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
C.L. "Butch" Otter, Idaho            VACANCY
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana
VACANCY

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
C.L. "Butch" Otter, Idaho
James V. Hansen, Utah




                                ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 8, 2001....................................     1

Statement of Members:
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement of....................................     1
    Rehberg, Hon. Dennis R., a Representative in Congress from 
      the State of Montana.......................................
        Prepared statement of....................................    15
    Simpson, Hon. Michael K., a Representative in Congress from 
      the State of Idaho.........................................
        Prepared statement of....................................    14
    Udall, Hon. Mark, a Representative in Congress from the State 
      of Colorado................................................
        Prepared statement of....................................    13
        Letter submitted for the record..........................    60
    Udall, Hon. Tom, a Representative in Congress from the State 
      of New Mexico..............................................
        Prepared statement of....................................    15

Statement of Witnesses:
    Hartzell, Tim, Director, Office of Wildland and Fire 
      Coordination, U.S. Department of the Interior..............    36
        Prepared statement of....................................    36
    Laverty, Lyle, National Fire Plan Coordinator, U.S. Forest 
      Service....................................................    17
        Prepared statement of....................................    19
    Martz, Hon. Judy, Governor, State of Montana.................     2
        Prepared statement of....................................     4

Additional materials supplied:
    Charts and Pictures referred to by Laverty and Hartzell......    27
    Letter to The Honorable Dan Glickman, Secretary of 
      Agriculture, and The Honorable Bruce Babbitt, Secretary of 
      the Interior, dated October 20, 2000.......................    54


       OVERSIGHT HEARING ON THE NATIONAL FIRE PLAN IMPLEMENTATION

                              ----------                              


                        Thursday, March 8, 2001

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                        House of Representatives

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 9:58 a.m., in 
Room 1324, Longworth House Office Building, Hon. Scott McInnis 
[Chairman of the Subcommittee] presiding.
    Mr. McInnis. As our audience can see, our membership is not 
here yet. The reason I am going to start, Governor, frankly, is 
as a courtesy to you. We have a vote expected in about three 
minutes, which means I will have to leave in about 15 minutes. 
I want to get your testimony. And it is also my understanding 
that members that are not too pleased with today's procedure 
will file a number of stalling motions over on the House Floor, 
so we will have a series of votes.
    Under those circumstances, Governor, I would like to have 
you testify when more members of the panel are here. But if we 
do that, I am afraid that you probably will not get an 
opportunity to testify. So I am going to skip over initially 
here any kind of opening statement on my behalf and on behalf 
of the ranking Committee member.
    [The prepared statement of Mr. McInnis follows:]

  Statement of The Honorable Scott McInnis, Chairman, Subcommittee on 
                       Forests and Forest Health
    It is appropriate that the Subcommittee's first hearing this 
Congress is on the subject of the National Fire Plan. No single program 
has a greater potential to transform our nation's forests and the way 
they are managed. The National Fire Plan is the culmination of years of 
scientific analysis, General Accounting Office studies and 
Congressional hearings, and is a direct response to the fundamental 
fact that fuel conditions on our federal lands are the worst they have 
ever been, dramatically demonstrated by last year's fires. But what was 
really unusual about the 2000 fire season wasn't that seven million 
acres burned, but that the average size and intensity of individual 
fires were much larger and hotter than they have been historically. 
These super-hot fires not only destroy habitat for fish, wildlife and, 
of course, people, but they also put firefighters at extreme risk. I 
personally witnessed such tragic consequences to brave young 
firefighters on the Storm King fire in Colorado eight years ago.
    So it is for these just reasons that Congress appropriated an 
additional $1.8 billion for the fire plan for FY 2001, and for these 
same reasons it will remain crucial that we continue to maintain full 
funding for these activities. But continued funding will depend on the 
success of the fire plan, and success will be measured by 
accomplishments in the field, with tangible results such as the number 
of acres treated for hazardous fuels removal or the number of new, 
highly trained and well-equipped firefighters. Failure to implement the 
plan successfully will also result in tangible, but adverse, results: 
billions more spent for fire fighting, millions of acres of destroyed 
habitat, billions lost in property damage and, most certainly, the 
tragic loss of lives.
    This isn't to say that the agencies alone are responsible for 
implementing the fire plan; much of that responsibility falls with 
Congress, requiring thoughtful bipartisan effort and support. So I look 
forward to working with all my colleagues and the agencies on this 
immense effort. This, then, is the purpose of this hearing: to review 
the National Fire Plan, to measure its accomplishments to date, to 
review what yet needs to be done, paying careful attention to all 
barriers and impediments, and to determine what role this Committee and 
Congress can play in its successful implementation.
                               __________
    Mr. McInnis. Governor, welcome to our Committee. We 
appreciate it. I will let you proceed with your testimony.

   STATEMENT OF THE HONORABLE JUDY MARTZ, GOVERNOR, STATE OF 
                            MONTANA

    Governor Martz. Mr. Chairman, members of the Committee, for 
the record, I am Governor Judy Martz. I am here today 
representing the Big Sky State of Montana. It is an honor to be 
here today to testify on behalf of my State and the Western 
Governors' Association regarding the National Fire Plan. I want 
to thank the Chairman for his interest in an issue that is 
critical and of great importance to those of us in the West, 
and that is forest health.
    Please consider the testimony in its entirety that I have 
given to you, and let me begin by saying that those of us in 
Montana are pleased with the prospects of the National Fire 
Plan. For the first time in nearly a decade, the National Fire 
Plan offers a ray of hope for our Nation's forests.
    While the smoke has cleared from one of the most 
devastating fires in our history, we must remain vigilant in 
our efforts to minimize future devastating fires. Already in 
Montana, at this time we fear that the potential exists for 
another significant fire season. I will not refer to the charts 
again that I have placed here today, but I did want you to see 
just some of the devastating headlines and what was happening 
in Montana. And as I just looked at those headlines, it brought 
me back to the fire season last year, and there is something 
very devastating that happened.
    This picture I think everyone in this room is familiar with 
of the elk down in the fire, as the elk were displaced by the 
fire. This happened to a lot of our wildlife, but thankfully 
someone caught the picture, and you have all seen it. Now, 
having been made into a pin, it is a constant reminder of the 
displacement of the wildlife.
    Drought continues in Montana, and the consequences of an 
extended drought impose an even greater fire danger for this 
coming year.
    In the interior West, the wildfires of 2000 burned nearly 7 
million acres. Of the nearly 7 million acres, 900,000 acres in 
Montana were reduced to ash. Three hundred homes were 
destroyed, and nearly 6,000 were threatened. We had over 20 
communities evacuated as a result of an out-of-control 
wildfire.
    While we cannot prevent drought, lightning strikes, heat, 
or wind, we can prevent some of the devastating impacts that 
result from mismanagement and inaction.
    We must manage our national forests. ``Hands-off'' is not 
management. We have successfully excluded fire from our 
landscape for the past 90 years. And while the Forest Service 
was quick to respond to fire starts across our Nation, an 
action plan for forest management sat on the shelf. Entire 
watersheds and landscapes have grown dense with small trees and 
brush, creating unnatural and unhealthy conditions ripe for 
catastrophic fires. In fact, the General Accounting Office in a 
report requested by this Subcommittee identified nearly 40 
million acres of national forest land at risk of catastrophic 
fire within the interior West. Last summer, we burned in 
Montana less than 10 percent of the acreage identified by the 
GAO.
    Instead of focusing on how much timber we harvest, we need 
now to focus on how much we leave on the land. Instead of 
focusing on acres harvested and board feet processed, we need 
to focus on the overall health of the forest ecosystem.
    Some of our forests have grown dense and have accumulated 
large amounts of hazardous fuels, making it nearly impossible 
to prescribe burn. In cases such as this, man needs to mimic 
the purpose of fire by cleaning or clearing overgrown and over 
accumulated fuels. Only after successful restoration can we 
introduce fire in its natural form.
    The National Fire Plan offers a full range of forest 
management tools, from prescribed burns to mechanical 
treatment. State and local governments are active participants.
    The Forest Service will follow nine operating principles 
guiding their work to implement the National Fire Plan, and I 
am encouraged by those principles, frankly, that are outlined 
and look forward to working with the Forest Service on 
implementing those principles in Montana.
    Last summer's fires affected private and State lands as 
well. In Montana, we saw over 14,000 acres of State forest 
burn. Recognizing that the value of burnt, dead timber 
decreases rapidly with time, our Department of Natural 
Resources, the DNRC, moved in an environmentally sound and 
fiscally responsible manner. DNRC quickly evaluated the 
affected resources in accordance with the Montana Environmental 
Policy Act, similar to NEPA, and prepared a plan to treat the 
area's most severely impacted by fires. Today, the State has 
completed 90 percent of the treatment plan on 5,400 acres of 
State land. This treatment plan has rehabilitated many of the 
burned acres and generated $3.7 million for our public 
education system. The harvests were also conducted while 
adhering to the letter of the State Forest Land Management 
Plan, which is to manage for biodiversity and forest health, in 
effect, similar to the USFS ecosystem management philosophy.
    To date, the United States Forest Service in Montana has 
not removed any timber affected by the fires of last summer, 
and I ask why.
    Additionally, the treatment plan addressed rehabilitation 
measures that included soil stabilization measures, stream bank 
stabilization, and reseeding wherever it is necessary. This 
summer, the State will begin the process to evaluate and 
address necessary treatment of the areas less impacted by the 
fires.
    My point is simple. If the State of Montana can move in a 
timely, environmentally sound, and fiscally responsible manner 
with limited resources, should we not expect our Federal 
neighbors to do the same? We need them to do the same.
    I would like to present the balance of my testimony now on 
behalf of the 21 members of the Western Governors' Association, 
of which I recently became a member.
    Since last summer's fires, States have been working 
collaboratively with Federal agencies and other stakeholders to 
develop a national 10-year strategy to reduce the risk of 
wildfires. The Governors of the Western Governors' Association 
requested this strategy, and Congress concurred on the need for 
a long-term approach in the Fiscal Year 2001 Interior 
Appropriations report. A draft of that strategy for public and 
congressional comment is appended to my testimony. We are 
aiming to complete it by May 1st. I encourage Congress to 
remain vigilant in improving the health of our Nation's 
forests. We must be dedicated to a long-term strategy that 
addresses the health of our forests and reduces the risks to 
our population. And we must fully fund the National Fire Plan. 
The goals set by the National Fire Plan are crucial to 
minimizing threat to lives and to property in our entire 
region.
    Thank you.
    [The prepared statement of Governor Martz follows:]

   Statement of The Honorable Judy Martz, Governor, State of Montana
    Mr. Chairman, Members of the Committee, for the record, my name is 
Judy Martz and I am the Governor of the great state of Montana. It is 
an honor to be here today to testify on behalf of my state and the 
Western Governors' Association regarding the national fire plan. I want 
to thank the Chairman for his interest in an issue of critical 
importance to those of us in the west; the health of our forests.
    Let me begin by saying that those of us in Montana are very excited 
about the prospects of the National Fire Plan. For the first time in 
nearly a decade, we view the National Fire Plan as a ray of hope for 
our nation's forests. And the reason we are hopeful lies in the 
opportunity to work together with our federal partners on solving 
issues that we witnessed last summer. Devastating and catastrophic 
fires swept across vast acres of Montana and the west last summer. We 
need to do everything possible to avoid that scenario from repeating 
itself again.
    While the smoke has cleared from one of the most devastating fires 
in our history, we must remain vigilant in our efforts to minimize 
future devastating fires. Already in Montana, we fear the potential 
exists for a repeat performance of last year's fires. Drought has hit 
Montana hard, and the consequences of an extended drought have serious 
impacts to our natural environment.
    In the interior west, the wildfires of 2000 burned nearly 7 million 
acres. Of the nearly 7 million acres, Montana witnessed over 900,000 
acres reduced to ash. The State of Montana watched in horror as over 
300 homes were destroyed, and nearly 6000 were threatened. We had over 
20 communities evacuated as a result of an out-of-control wildfire.
    The Big Sky State fell under a brown hue of smoke. From August 5th 
to September 8th, the Montana Department of Environmental Quality 
issued a total of 21 ``very unhealthy'' advisories and 19 ``hazardous'' 
advisories for communities in the northwest part of the state. 
Visibility hung around 1 mile or less for most of the summer. A state 
proud of its ``clean and healthful'' environment had fallen to air 
quality levels worse than Los Angeles. Environmental groups long 
opposed to active management fell silent amidst the smoke, chaos and 
personal trauma of last year's fires.
    While we cannot prevent drought, lightening strikes or hot windy 
days, we can prevent some of the devastating impacts that result from 
mismanagement and inaction.
    In particular, we must manage our national forests. ``Hands-off'' 
is not management. We have successfully excluded fire from our 
landscape for the past 90 years. And while the forest service was quick 
to respond to fire starts across our nation, they were slowly drifting 
away from active management of those lands. The result, entire 
watersheds and landscapes have grown dense with small trees and brush, 
creating unnatural and unhealthy conditions ripe for catastrophic 
fires. In fact, the General Accounting Office in a report requested by 
this subcommittee, identified nearly 40 million acres of national 
forest land at risk of catastrophic fire within the interior west. Last 
summer, we burned less than 10% of the acreage identified by the GAO.
    Unless we move aggressively, with a unified plan and strategy, we 
can expect many more summers like last. While spring has not eased into 
the intermountain west yet, the impacts from last summer's fires remain 
to be seen. Impacts to water quality, wildlife habitat, endangered 
species, erosion and regeneration will play itself out with the coming 
spring run-off and summer rains.
    As a nation, we need to move away from the confrontational gridlock 
we have experienced in the past. I have long maintained that there is 
no constituency for dirty air and dirty water. We all want a clean 
environment. But a clean environment does not happen by accident. It 
happens with measured purpose. And the National Fire Plan is a move in 
the direction of a cleaner and healthier environment.
    By focusing on the health of our forests, we can achieve many of 
the objectives important to all Americans. Instead of focusing on how 
much timber we harvest, we need to focus on how much we leave on the 
land. Instead of focusing on acres harvested or board feet processed, 
we need to focus on the overall health of the forest ecosystem. We need 
to manage our forests for an end result; and that end result must be a 
healthy forest.
    Charles Keegan, Director of Forest Industry and Manufacturing 
Research and Research and Carl Fiedler, Research Associate Professor, 
School of Forestry, both of the University of Montana, Missoula, have 
long advocated for healthy forests through active management of our 
nation's forests.
    In a nutshell, Chuck and Carl recommend active management to bring 
our forests back to a more natural and healthy condition. This 
management technique involves clearing under-story and over-story of 
overly crowded trees, and prescribed burning where appropriate. And the 
key word here is appropriate. Some of our forests have grown dense and 
have accumulated large amounts of hazardous fuels, making it nearly 
impossible to prescribe burn. In cases such as this, man needs to mimic 
the purpose of fire by clearing overgrown and over-accumulated fuels. 
Only after successful restoration can we introduce fire in its natural 
form.
    The National Fire Plan endeavors to offer a full range of forest 
management tools, from prescribed burns to mechanical treatment. And by 
including state and local governments and the affected public to 
participate in management decisions, we have an honest opportunity to 
positively affect the health of our nation's forests.
    The National Fire Plan moves us in the direction of sustainable and 
healthy forests. The Forest Service will follow nine Operating 
Principles guiding their work to implement the National Fire Plan. I am 
encouraged by the principles outlined and look forward to working with 
the Forest Service on implementing those principles in Montana.
    Responsible agencies must use expedited procedures to implement 
this plan. I understand the agencies have the available procedures to 
expedite this plan, and if not, then Congress must act prudently and 
expeditiously itself to provide legislative language that allows 
expedited procedures.
    We can and we must move in an expeditious manner to address forest 
management. Last summer's fires affected private and state lands as 
well. In Montana, we saw over 14,000 acres of state forest burn. 
Recognizing that the value of burnt, dead timber decreases rapidly with 
time, our Department of Natural Resources (DNRC) moved in an 
environmentally sound and fiscally responsible manner. DNRC quickly 
evaluated the affected resources in accordance with the Montana 
Environmental Policy Act (similar to NEPA) and prepared a plan to treat 
the areas most severely impacted by the fires. Today, the state has 
completed 90% of the treatment plan on 5400 acres of state land. This 
treatment plan has rehabilitated many of the burned acres and generated 
$3.7 million to the school trust that will be used for our public 
education system. The harvests were also conducted while adhering to 
the letter of the State Forest Land Management Plan, which is to manage 
for biodiversity and forest health, in effect similar to the USFS 
ecosystem management philosophy.
    To date, the United State Forest Service in Montana has not removed 
any timber affected by the fires of last summer.
    Additionally, the treatment plan addressed rehabilitation measures 
that included soil stabilization measures, stream bank stabilization 
and reseeding where necessary. This summer, the State will begin the 
process to evaluate and address necessary treatment of the areas less 
impacted by the fires.
    My point is simple. If the State of Montana can move in a timely, 
environmentally sound and fiscally responsible manner with limited 
resources, should we not expect our federal neighbors to do the same?
    I would like to present the balance of my testimony on behalf of 
the 21 members of the Western Governors' Association of which I 
recently became a member.
    Since last summer's fires, states have been working collaboratively 
with federal agencies and other stakeholders to develop a national 10-
year strategy to reduce the risk of wildfires. Western governors 
requested this strategy and the Congress concurred on the need for this 
long-term approach in the FY 2001 Interior Appropriations report. A 
draft of the strategy for public and Congressional comment is appended 
to my testimony. We are aiming to complete it by May 1. Once completed, 
we believe this document will demonstrate that a broad range of 
interests are in agreement on the need, resource levels and approach to 
addressing this issue.
    And I would like to take this opportunity to encourage Congress to 
remain vigilant in improving the health of our nation's forests. We 
must be dedicated to a long-term strategy that addresses the health of 
our forests and reduces the risks to our population. We must, and I 
repeat must, fully fund the National Fire Plan. The goals set by the 
National Fire Plan are crucial to minimizing threat to lives and 
property. We must remain committed for the long run.
    We were lucky last year. With the grace of God and a mobilization 
of forces like we have never before seen, lives were saved and property 
was protected. Unless we seriously commit to addressing the risks posed 
by unnatural and unhealthy forests, we will not always be able to say 
we were so lucky.
                               __________
    Mr. McInnis. Thank you, Governor.
    Governor, the panel appreciates the effort that you made to 
travel clear across the country to make your presentation. 
Later in the meeting, we intend to have the Forest Service. I 
am pretty positive about some of the steps that they have 
taken.
    There are a couple of comments that stand out in your 
comments that you have made, in particular your comment that 
``hands-off'' is not management. You label it directly. That is 
exactly correct. You also said that, to date, the United States 
Forest Service in Montana has not removed any timber affected 
by the fires of last summer, and I think what is of interest, 
Governor, is you compare it to what your State Department of 
Forest Service has done in comparison. It is clear that one 
agency is able to move on a much more rapid basis than the 
other agency.
    Considering the fire potential that we have out there, it 
is important that we move on an expedited basis, not a careless 
basis, not a reckless basis, but an expedited basis. And I 
think that we are heading in that direction.
    I think your point that the State of Montana can move on 
that--and you have set a good example for us--is the kind of 
thing we need to hear back here.
    Governor, as you will remember, at the beginning of the 
meeting we waived opening remarks because of the fact we wanted 
to get your testimony in, and I want to allow as much 
questioning as possible. In view of that, I will waive the 
remainder of my time and yield to the ranking member for a 
couple comments, and, members, we will go to the 5-minute 
question rule. I yield my time to the ranking member and 
welcome the ranking member.
    Mr. Inslee. Thank you, Mr. Chair, and I really will not 
have too much of a comment here. Should we move to some 
questions here? Is that appropriate?
    Mr. McInnis. That would be appropriate.
    Mr. Inslee. Great. Thanks again, Governor. This is twice in 
two days. You are doing yeo-woman's service, so we appreciate 
it.
    Governor Martz. Thank you.
    Mr. Inslee. I just want to ask you a real broad question, 
if I can, and feel free to philosophize or rhapsodize at your 
pleasure. And I will go right to the heart of a controversy 
that we will be talking about, something that can be a 
controversy on this issue, and that is, the need in certain 
instances to remove fuel from the forest which in certain 
instances needs to be done because our previous fire 
suppression policy has allowed tremendous growth to some degree 
in fuel.
    But in doing so, many of our constituents have concerns 
that any fuel suppression program could end up as a masquerade 
for, in fact, an increase in commercial harvest. That was 
really motivated not so much by fuel suppression but, rather, 
simply the increased harvest levels where the law, the ESA, and 
various other restrictions may not allow it.
    I would just like your thoughts on how you think we can 
structure or should consider structuring a program to avoid 
that second possibility of disguised commercial harvesting, if 
you will, under the guise of fuel suppression while still, you 
know, reaching that goal. And feel free to give us your 
thoughts even if you haven't thought all the way through it.
    Governor Martz. Thank you very much, Congressman. I really 
believe that within my heart I think what we are trying to do 
is talk about healthy forests. And if we consider that and keep 
the argument of timber harvests as being jobs related or 
creating jobs for the industry out of this, we will look truly 
at creating a healthier forest. And that is what we have been 
saying for years in Montana.
    The fuels are laying there. They are laying dead. Trees 
can't even grow to the size they should grow. Thinning is 
better for forests. We are finding that out for sure. And I 
really think that for the ecosystem the argument is that we 
really need to do--we need to leave some of that dead and burnt 
timber. But how do we do that in an environmentally and 
ecologically safe way? And I think that has got--we need to 
continually take the harvesting or the removal out of the 
picture, but start to look and really concentrate and focus in 
on the reasons we want to do this. And the reason we want to do 
it in Montana is to have a healthy forest.
    Our fires last year, as you know, were so large. We had the 
best firefighters in the world there. And to sit in the same 
room with them and hear them say these are too hot, we cannot 
put them out, flames flashing over 300 feet in the air, and 
there was no way because of the hot box that sat underneath 
them.
    Now we are faced with different problems--erosions, 
watersheds, those kinds of things. So for a healthy forest, we 
must take away the equation. The equation, yes, is going to 
bring some timber harvests, and we must be diligent to get that 
out of there. But the first and main concern and the argument 
that we need to keep focused on is a healthy forest.
    Mr. Inslee. Let me ask you, you said something to the 
effect of wanting to remove the issue of harvest from this 
debate. I want to make sure I understand you. I have many 
constituents who basically are looking for a level of trust in 
a decision-making process. What they want to have is trust that 
a decision to remove any fiber or timber from the forests under 
this program, in fact, would be done for a fire suppression 
purpose rather than for a purpose of, although it may be 
laudable at times, job creation, profit creation, commercial 
harvest.
    Could you suggest to us ways in fashioning this program 
which would help build that trust in the public? And let me 
just give you an example of some things that I have heard 
tossed about as far as ideas. I have heard tossed about having 
a maximum diameter of tree that can be removed. I have heard it 
tossed about that you limit actual commercial use or sale of 
the timber. I have heard ideas tossed about that would, in 
effect, artificially restrict the removal of the timber for 
commercial purposes.
    What could you suggest to us that would give confidence to 
the public on how we would structure such a program in that 
regard?
    Governor Martz. First of all, you can't fool yourself. 
There will be jobs in this, and there will be tree harvest. 
There has to be, or else all of the dead, burnt, standing 
timber right now is going to be diseased, and each of those 
trees, depending on what kind of tree they are, is a very 
limited time before they are diseased. Now, we can't have a 
diseased forest either because then as new growth comes in, we 
start to build another tinder box. So you do have to do 
removal.
    When we did our State lands, Congressman, we had to 
designate how many of those trees and what diameter they are to 
be left standing. So in the prognosis of how you go forward, 
you do it by prescribing what you want to have standing in 
that.
    We have through the Western Governors' Association what we 
believe--concentrating on what we want to see, we have a list 
of goals and outcomes, and this is just in draft form. So as 
soon as it is in its final form, we will get this to you. We 
have several recommendations on the outcomes and what we 
believe we need to do.
    But to get confidence in the general public, I think we 
have to be very honest. There are going to be some jobs in 
this, but that is not our main focus. Our main focus is to get 
the dead timber out of there so it doesn't disease, then create 
another hot box in several years, which it will do. As that 
undergrowth goes up again, we may have a predicament this 
summer in Montana that will cause us to not be able to get back 
into the forest again. If we continue in the drought that we 
are having right now, we may not be able to get in. If we don't 
get those trees out early that are dead standing, we may not be 
able to get into the forest because of the fire danger again.
    So I think we just have to be honest with them, for one 
thing. That is the greatest thing.
    Mr. Inslee. Thank you.
    Governor Martz. You are welcome.
    Mr. McInnis. Governor, I might point out, before I yield to 
the next member, that I agree with the gentleman from 
Washington in regards to that we don't want to use this fire 
policy as a guise to sneak in commercial logging.
    Governor Martz. Right.
    Mr. McInnis. On the other hand, Governor, we don't want to 
use this as a tool or a vehicle to prevent logical, scientific 
logging. If we have timber in there that we need to harvest for 
forest health, it is beyond me why we would not go ahead and 
offer it for commercial sale instead of, I guess, stacking it 
up somewhere and burning it and so on.
    I will yield to the gentleman from Tennessee.
    Mr. Duncan. Governor, I was present in 1998 when we had a 
hearing in which they warned us about these fires and that they 
were coming, and then again in early 2000 and the GAO report 
that you mentioned with the warning that there were 40 million 
acres in the West in immediate danger of catastrophic forest 
fires. And then we saw those warnings that we received as early 
as 1998 come true, and I remember reading one article that 
there had been $10 billion worth of damage from this roughly 7 
million acres that you mentioned burned.
    If I had gone out there and set fire with some matches, or 
whatever, to even a few acres, I probably would have been put 
in jail. And yet these policies that we followed resulted--the 
policies that I think we followed because of radical or 
extremist environmentalists who seemingly don't want us to cut 
a single tree any place. Somehow, though, they have almost 
brainwashed the children in this country because I think if I 
went to any school in Knoxville, Tennessee, and told them I was 
opposed to cutting a single tree in the national forests, I 
would probably get applause.
    Somehow people seem to have the idea that the national 
forests are national parks, and nobody is advocating going in 
and logging in the national parks. And I don't know--I agree 
with the Chairman on most things, but I am not opposed to 
commercial logging. People have to think that if we don't have 
some commercial logging in a few places in this country, people 
aren't going to be able to build affordable houses or furniture 
or have toilet paper or books or whatever.
    How do we get the message out that to have healthy forests 
we need to cut some trees, and to have low prices for all these 
products that we want, we have got to cut some trees? And if 
people stop all logging, you are going to drive up prices and 
you are going to destroy jobs. How do we get this message out? 
Because we seem to be, I think, losing in some ways on this.
    Governor Martz. And I am not sure that I can answer how we 
get it out. We try very hard in Montana. We have what is called 
best management practices that they use in the forests where 
they are only able to cut so many trees in a certain area, they 
can't cut within so many feet of the watershed. There are very 
strict guidelines on how they do cut.
    For us to pretend that we don't want to have the jobs, that 
is ludicrous. We need the jobs. The health of the forest 
depends on those people bringing it out in a scientifically 
conscientious manner. But when we talk about that, it almost 
seems like we are shifting the focus to the jobs it creates, 
when we really need to concentrate. In a sense, we did put the 
fire--we did start those fires. In 1998, we came up with a plan 
where we knew better, and we didn't really do it. Now we know 
better because we are seeing the ramifications of that, and we 
need to do it.
    I think education, continually educating, if we can--if you 
go see a cut, it doesn't look pretty when it is being done. 
When they harvest it, it doesn't look pretty because you have 
the stumps. But you go back a year later, and the new growth, 
and you will see new seedlings coming up, that is pretty. And 
it is usable. Cattle can graze there, and they don't hurt the 
ecosystem. They can't graze there probably the first year, 
especially after a prescribed burn, but they can go on there 
and graze within the next two years and you have a healthy 
forest again.
    So I think education is key to what we are doing in sync 
with the process that we are using to have a better managed 
forest.
    Mr. Duncan. I remember reading in the Knoxville News 
Sentinel that in 1950, 39 percent of Tennessee was in forest 
land, and by 1990 it was up to 45 percent, and today about half 
of Tennessee's 27 million acres is in forest lands. And then I 
read in the Christian Science Monitor where just about every 
Eastern State, the amount of forest land has gone up 
significantly over the last 50 years, yet very few people 
realize that.
    I mentioned yesterday in this hearing that Congress passed 
in the mid-1980's this law that was hailed by the 
environmentalists that we wouldn't cut more than 80 percent of 
the new growth in our national forests, yet today we are 
cutting less than one-seventh of our new growth. And what I 
think it is, some of these groups can't raise money unless they 
keep raising the bar and scaring people and convincing people 
that we are raping the environment and doing all of these 
horrible things, when really we have made great, huge strides 
and, in fact, we are not even cutting enough trees to keep 
these forest fires from happening.
    Governor Martz. I could not agree more.
    Mr. Duncan. Thank you very much.
    Mr. McInnis. Governor, those buzzes you heard obviously 
were an indication of a vote. We will be getting a couple more. 
It appears to me we probably will only have time for one more 
set of questions.
    I would request that the remaining panel members who will 
not have an opportunity to ask those questions to you be 
allowed to submit those questions in writing to your staff for 
response back.
    Governor Martz. Absolutely.
    Mr. McInnis. We also appreciate the courtesy of you coming. 
After this next set of questions, I do not anticipate that we 
will be back here for probably half an hour. I would ask the 
other people to stay, certainly the second panel. Your 
testimony is very important. We intend to continue the hearing, 
but at that point I understand you need to keep with your 
schedule, Governor. So let's wrap it up. As you will see, 
Colorado pretty well dominates this Committee, and that is by 
choice. But the fine Congressman from the State of Colorado, 
Mr. Udall.
    Mr. Udall of Colorado. Thank you, Mr. Chairman. Welcome, 
Governor. It is important that you are here today to share with 
us your perspectives on Montana's approach to this.
    The Colorado delegation last year in the person of 
Congressman Hefley, who is chairing another Subcommittee of 
this large full Committee, and myself introduced a bill that 
would have applied to the lands in Colorado in the so-called 
Red Zone. That is the urban-wildland interface. And that is 
where we have had the most pressure on our forests and, in 
fact, where we had a couple of the catastrophic fires last 
year. And our emphasis has been on focusing there to educate 
the people who live in those areas, but also to do the kind of 
fuel reduction and forest health work that would save lives, 
save property, and save people from the heartaches that come 
when these fires get out of control.
    Is it your sense that--I am not trying to lead you on this, 
but ask if this would be the kind of policy that we first 
implement with these monies and with this large-scale program 
that we now have before us?
    Governor Martz. It is, and could I just tell you some of 
these recommendations from the Western Governors, and I think 
they will line up with what you are thinking. We believe that 
we must reduce the risk and consequences of catastrophic 
wildfires and increase public and firefighter safety, to 
improve conditions of fire-adapted ecosystems to make them more 
resilient, to promote local action by increasing public 
understanding and providing the tools to enhance local 
responsibility. We need to maintain and enhance community 
health, economic and social well-being, increase resources for 
protection capabilities. We need to provide the restoration and 
rehabilitation of fire-damaged lands and to enhance 
collaboration, coordination among all levels of government and 
stakeholders for joint planning, decision-making, and 
implementation.
    And I think there is something further that needs to be 
entered into the discussion at some time, is when people build 
in these areas where the trees are right up to their houses, 
maybe local planning or planning on Federal and State land, 
they have to have their own buffer zone, put that in before 
they can build, of some many feet before timber can be right on 
top of the house. I think something has to be looked at in that 
way, too, because we spend millions of dollars fighting fire 
over one home. And is that fair to every taxpayer? I don't 
know.
    Mr. Udall of Colorado. Thank you for that response. I want 
to associate myself with my colleague from Washington, Mr. 
Inslee, when he discussed the concerns that some of us share 
that we don't put the cart before the horse and that in the end 
this approach is about making our forests healthy.
    I would tell you, when you talk to the environmental 
community, who I think is very well intentioned and understands 
that forests are part of our economic base in the West, that we 
sell our views and our recreation as well as the commodities 
that we bring off the public lands, that when you say forest 
health to those communities, they think that means clear-
cutting. When you say sustainable forests, which is what the 
environmental community tends to use as their approach, the 
commodity interests and other economic interests think that 
means lock up the forests and nobody ever has any access. And I 
think we have got to work to find some additional common ground 
here, understanding that in the end we all want the same thing, 
which is healthy forests that can provide for our families in 
recreational amenities and the views and the experiences we all 
enjoy in the West and the out-of-doors, but also, where 
appropriate, that allow for access to those wood products.
    I also think we have an enormous opportunity--and you 
mentioned leaving some of this material in the forest because 
it is needed for the forests to regenerate themselves. But with 
the emerging energy crisis, we had a hearing yesterday, and 
there is a whole industry emerging around biofuels, and a lot 
of this small-diameter material can be used with the emerging 
technologies to produce ethanol. It is a cellulosic ethanol. 
And I hope that we will look at that as a potential feedstock 
for ethanol production so that we become more independent and 
we don't have the national security issues that are tied to our 
dependence on foreign oil.
    I am not giving you much chance to comment, but the last 
question I would ask you is: In our bill, Mr. Hefley's and my 
bill, we included a 12-inch diameter limit. Now, some people 
think that is too big. Some people think that is too small. But 
we felt it was important to begin with a standard and at least 
put something on the table. I am curious if you have a reaction 
to that particular size limit for cutting. And, again, this 
would be in the Red Zone, in this urban-wildland interface.
    Governor Martz. We have designated in Montana certain--it 
may be 9, it may go to 12, but you have to leave so many of 
those standing. I mean, it doesn't mean that you leave every 
one of them that are 12 inches in diameter standing. It would 
mean you leave so many in a certain area for a healthy forest.
    We call it best management practices, and you are calling 
it something else, but we are talking about the same thing, 
managing it in a viable way that is good for the ecosystem, is 
good for the ground, is good for everything that is around it.
    I want to go back to the ethanol use. We are considering 
everything in the way of ethanol use in the State of Montana to 
the extent that we are looking at building an ethanol plant 
there right now. The legislature is looking at a couple of 
bills. And so that is something that we are seriously 
considering.
    Mr. Udall of Colorado. We would like to work with you 
through the Renewable Energy and Energy Efficiency Caucus in 
the House, which has about 180 members from both parties and is 
very interested in ethanol maybe being a transition fuel to 
what I think eventually may be a fuel cell economy over the 
next 50 to 100 years.
    Governor Martz. Right. In fact, the next State car I have 
will use both ethanol and--it is a good start.
    Mr. Udall of Colorado. Excellent.
    Mr. McInnis. Governor, again, we are going to have to 
conclude our testimony temporarily. There are a couple of 
things that I would point out.
    First of all, I do want to make note that there is some 
danger in getting into specific measurement of diameters. I 
mean, you may have a species that is not natural to the forest 
which exceeds 12 inches, and all of a sudden you have got a 
Federal bureaucracy, and I think our bureaucracy has pretty 
clearly demonstrated in lack of movement, as compared to your 
State Forest Service--which, by the way, in my opinion are 
closer to the soil than the Federal agency is.
    I wish that we could continue this meeting because I am 
sure you would be interested in the follow-up panel, Mr. 
Laverty and Mr. Hartzell. We are going to hire 4,000 new 
firefighters. I think our communication with your State, with 
all the States on these fires will be enhanced. I think some 
very positive news will be held in the rest of the hearing.
    I understand that you need to go. We certainly need to go 
vote. I appreciate the courtesy, and safe travels home.
    Governor Martz. Thank you very much.
    Mr. McInnis. The Committee will reconvene after the vote.
    [Recess.]
    Mr. McInnis. If everyone could be seated; also, just as a 
reminder, no cellular phones in the room, please.
    As the Committee knows, we have been delayed by a vote. I 
think, however, we can wrap up the second panel. I would ask 
members to submit their opening statements for the record. I 
also have a statement to submit for the record from Congressman 
Rehberg.
    [The prepared statement of Mr. Udall of Colorado follows:]

  Statement of The Honorable Mark Udall, a Representative in Congress 
                       from the State of Colorado
    Thank you, Mr. Chairman, and thank you for scheduling this hearing 
today. I don't think you could have chosen a more timely subject for 
the start of your tenure as chairman of the Subcommittee.
    And, as you know, Mr. Chairman, it is also a subject of particular 
interest to me--and to everyone back home in Colorado as well as other 
western States.
    Across Colorado--and across the west--rapid population growth means 
that more and more communities are pressing against and into our forest 
lands, enlarging the so-called ``urban interface'' that in Colorado is 
also known as the ``red zone''--the area where forest fires present the 
greatest dangers to people's lives and homes.
    The danger of forest fires in such areas is certainly not new. But 
last year's combination of a Presidential election and very damaging 
forest fires--including those in Colorado and Montana as well as the 
disaster in New Mexico resulted in important new developments, 
including the legislation whose implementation we are reviewing here 
today.
    That legislation, which set up the National Fire Plan, resembles in 
important ways a bill that our colleague, Representative Hefley, and I 
introduced earlier in the year and that was also cosponsored by 
Representatives DeGette and Tancredo.
    However, our bill would have applied only to Colorado's ``red 
zone''--and it also had some other important provisions that were not 
included in the legislation setting up the national fire plan.
    For one thing, our bill emphasized public involvement by providing 
for setting up a committee--representing a broad spectrum of 
interests--to establish priorities for use of funds.
    And, our bill specifically provided that fuel-reduction projects 
would have to meet some essential guidelines.
    For example, the bill specified that projects could not be 
performed in Congressionally-designated wilderness areas, that roadless 
areas would have to be protected, that the projects must comply with 
all state and federal environmental laws and regulations, and, most 
notably, that projects could include removal only of trees up to 12 
inches in diameter.
    That last requirement--a cutting limit based on tree size drew many 
comments from people holding differing views about the use of 
mechanical thinning to reduce fire risks.
    Some people do not support allowing removal of trees that big, or 
perhaps of trees of any size. Others see the 12-inch limit--or perhaps 
any specific limit--as both arbitrary and too restrictive.
    I respect the sincerity of those raising those objections. However, 
I think that our bill struck an appropriate balance and represented a 
legitimate starting point for legislative action.
    The bill recognized that where the risk of catastrophic wildfires 
comes from overly-dense vegetation, it is because of the build-up of 
small-sized materials, including trees smaller than 12 inches in 
diameter.
    It was also shaped by an understanding that cutting larger trees 
often can lead to more severe fires, for a variety of reasons, and can 
also have other adverse effects.
    The limit in our bill also reflected the fact that cutting larger 
trees is controversial--especially when the larger trees may have 
commercial value.
    It is simple fact that some will see the inclusion of larger trees 
as evidence that a project ostensibly aimed at reducing the risk of 
fire is really intended to be a commercial undertaking, by the Forest 
Service and by industry.
    This could lead to challenges that would unnecessarily complicate 
necessary projects that were otherwise not controversial.
    In short, both on the scientific merits and for reasons of public 
acceptability, I thought--and I still think--that there should be 
limits on the scope of these projects, of the kind that would have been 
set by our bill.
    That is why last year, after enactment of the legislation setting 
up the national fire plan, I initiated a letter--ultimately also signed 
by 25 other Members of the House--to the Secretary of Agriculture and 
the Secretary of the Interior urging that the fire plan be implemented 
under appropriate safeguards and conditions.
    I now have received a response from Michael Rains, the Deputy Chief 
of the Forest Service for State and Private Forestry. The response 
states that the Agriculture Department shares the concerns expressed in 
our letter and outlines how those concerns will be addressed in the 
implementation of the national fire plan.
    I ask unanimous consent that both of these letters be included in 
the record of today's hearing.
    Mr. Chairman, in Colorado's ``red zone'' and other areas covered by 
the national fire plan, there are very real risks to people, property 
and the environment--some of them resulting from past fire-management 
policies.
    But it is very important that the need to respond to those real 
risks is not misused as a convenient rationale for projects that do not 
meet proper standards.
    I think it is essential that fire-plan projects reflect public 
involvement, are based on sound science, and are completely consistent 
with applicable environmental laws.
    In fact, it is precisely to help assure that fire-plan projects 
meet those requirements that last month I joined in cosponsoring a bill 
to clarify that funds appropriated to implement the fire plan can be 
transferred to the U.S. Fish and Wildlife Service and the National 
Marine Fisheries Service. That will enable those agencies to review 
projects to assure that they will comply with the Endangered Species 
Act. I think we should act promptly on that legislation, to forestall 
problems and to keep the fire plan both on track and on a sound legal 
and environmental footing.
    With that being said, Mr. Chairman, I look forward to hearing from 
our witnesses.
                                 ________
    [The prepared statement of Mr. Simpson follows:]

  Statement of The Honorable Michael K. Simpson, a Representative in 
                    Congress from the State of Idaho
    Mr. Chairman, thank you for conducting this oversight hearing on 
the implementation of the National Fire Plan. As you know, I have the 
dubious distinction of representing a district that had one of the 
largest fires in the United States during the 2000 fire season: the 
Clear Creek fire in the Salmon-Challis National Forest. The Clear Creek 
fire covered an area of over 200,000 acres, outside of Salmon, Idaho. 
However, it is but one of many that burned throughout Idaho and the 
Western United States.
    I was able to spend a couple of days on the Clear Creek fire and 
saw first-hand the devastation catastrophic forest fires cause. It is 
unfortunate that it took a fire season like the one we had last year in 
order for the Secretaries of Agriculture and Interior to produce the 
National Fire Plan. However, I am pleased that the U.S. Forest Service 
and the Department of the Interior responded with a comprehensive plan 
and strategy for dealing with heavy fuel loads, and restoration and 
rehabilitation of lands already stricken by catastrophic fires. 
Moreover, I was pleased that the U.S. Forest Service and the Department 
of the Interior worked with the Western Governors' Association to draft 
report language ensuring cooperation and consultation between governors 
and the Secretaries of Agriculture and Interior.
    We need to restore our forests. They are in an unhealthy state as 
evidenced by the 2000 fire season. The Forest Service and the General 
Accounting Office estimate that more than 72 million acres are at risk 
of uncharacteristic wildfire. We must restore our forests to a more 
healthy and natural state that includes managed prescribed burns and 
thinning. We may not agree on every aspect of achieving that natural 
state, but we can find common areas where we can agree that fuels 
reduction is better than the alternative--catastrophic forest fires.
    The old adage ``an ounce of prevention is worth a pound of cure'' 
is very appropriate. A well-funded fuels reduction program will pay 
significant dividends in the reduction of fire fighting and restoration 
costs over time. I am hopeful that the U.S. Forest Service and the 
Department of the Interior will continue to aggressively implement the 
National Fire Plan. In addition, I trust that the Secretaries of 
Agriculture and Interior will continue to work together with state and 
local officials to improve forest health.
    I am committed to working with state and local officials, the U.S. 
Forest Service, and the Department of the Interior to address any 
barriers that might stand in the way of successfully treating our 
forests. In addition, I am committed to working for continued funding 
for a long-term forest health initiative.
    Once again, I want to take this opportunity to thank you for 
holding this hearing. I am hopeful that the information presented here 
will bring us one step closer to healing our forests.
    Thank you Mr. Chairman.
                               __________
    [The prepared statement of Mr. Rehberg follows:]

Statement of The Honorable Dennis Rehberg, a Representative in Congress 
                       from the State of Montana
    I would like to thank Chairman McInnis for the opportunity to 
participate in this hearing about the National Fire Plan. This is a 
very timely issue, as we must prepare now for the fire season to come 
while we continue to deal with the effects of the wildfires of last 
summer. The national fire plan is an important thing for the state of 
Montana in our efforts to rehabilitate affected communities and 
National Forest lands.
    I am concerned that though the fire management plan contains many 
projects and programs that will be invaluable to the future of fire 
management, the President's Budget does not provide for continuing 
funding. In Montana we know that the risk for catastrophic fire is not 
over. Less than ten percent of the 3.5 million acres the GAO identified 
as at risk for catastrophic fire burned during the summer of 2000. And 
again this year, snowpack levels are below normal. If forecasts are 
correct, we are looking at another fire season that is worse than 
normal--perhaps even worse than last year.
    Another thing we face today in Montana is the presence of dead and 
dying trees as a result of fire on our national forest lands. State, 
tribal and private foresters have removed salvageable timber from their 
lands and I look forward to working with the Forest Service to expedite 
action on National Forest lands. It is important that we are able to 
get people on the ground to remove dead and dying stands while they are 
still salvageable.
    In addition to the devastation catastrophic wildfires leave in 
their wake, experts agree that such fires will prevent the Forest 
Service from meeting its mission requirement to sustain the national 
forests' multiple use because fires damage soils, habitat, and 
watershed functions for many generations or even permanently.
    I am pleased to see the Forest Service working to devise a cohesive 
strategy to address barriers to reducing excessive fuels on national 
forest lands, deal with the potential threats to people and property 
wildfires produce, and to provide affected communities with the 
assistance they need to rehabilitate.
                               __________
    [The prepared statement of The Honorable Tom Udall 
follows:]

Statement of The Honorable Tom Udall, a Representative in Congress from 
                        the State of New Mexico
    Mr. Chairman, Members of the Committee, thank you for affording me 
the opportunity to comment on some of the issues presented as a result 
of last summer's extraordinary wildland fire season.
    The National Fire Plan identifies a strategy to deal with ecosystem 
health issues in a manner that protects our communities and their 
citizens. It is a good start to a complex problem: A problem that 
exists because we have ignored the critical role fire plays in shaping 
the ecosystem. Now we have an opportunity to begin to undo what 100 
years of fire suppression, overgrazing, and poor logging practices have 
done.
    The National Fire Plan addresses several key elements that will 
safely and effectively manage our wildlands for future generations: 1) 
To adequately prepare our Federal, Tribal, State, and local governments 
for fighting wildland fire when they need to; 2) To restore landscapes 
damaged by last season's wildland fires; 3) To invest in projects to 
reduce fire risk; 4) To work with communities to ensure adequate 
protection through community assistance programs and; 5) To provide 
Congress with accountable results of these goals.
    Although wildland management agencies have long identified a need 
to address the risk of wildland fire, the Fire Plan is not a one-time 
effort. Congress should be committed to the program for the long haul 
and maintain adequate funding for 10 to 15 years. We should not measure 
the Fire Plan's success from start to finish in only 1 year. This 
process will take time.
    The intent was not to set up agencies and local governments for 
failure, nor expect them to solve the problems in 1 year. Rather, 
Congress needs to provide funding and oversight to our Federal land 
management agencies and Tribal governments to achieve key elements 
identified in the National Fire Plan.
    To be successful and to comply with congressional intent, Federal 
agencies, the Tribal, state, county and local governments, along with 
contractors, service providers, and the public need to collaborate and 
work in cohesive partnership. Of the major concerns I have toward 
implementation of this Plan, this one has major importance because of 
the planning and management that led up to the escaped prescribed burn 
in Los Alamos last year. We must ensure all groups and agencies are 
communicating and are in agreement with these efforts.
    Another concern is that we must work to ensure adequate funding is 
made available for the long term. Although the President's Fiscal Year 
2002 budget maintains funding levels for preparedness and other 
programs, it lacks adequate support for fire facility maintenance, fire 
science research, and community assistance. The backlog of fire 
facility maintenance exists throughout the country and this funding is 
inadequate to take care of the backlog. The research component will 
guide the development of the National Fire Plan and must be adequately 
funded. We need to support our states and local communities through 
community assistance funding to ensure they can make their communities 
safe through FIREWISE and other treatment methods. I believe it is 
important that adequate funding is made available for the long-term 
strategy. The current proposed budget does not do that.
    In the past, land management agencies have proposed and implemented 
fuels treatment and risk reduction projects in areas that are non-
controversial, inexpensive, and easy to do. Now is the time to look at 
the communities, watersheds, and species that are at risk from high 
intensity wildland fire. These areas tend to have the higher fuel 
volumes, higher resistance to fire suppression efforts, and threaten to 
burn homes or other valuable resources. Consequently, it will require 
more collaborative planning and higher costs to safely and effectively 
reduce risks of wildland fire.
    The process may include commercial timber harvest, non-commercial 
thinning, chipping, piling, or prescribed fire, or a combination of 
all. Let's keep our focus on sound land management practices.
    In conclusion, the National Fire Plan is a step in the right 
direction. However, the agencies must apply the best land management 
practices, be fiscally responsible, and demonstrate that their efforts 
are paying off. Finally, I want to recognize all the agencies and 
partners who are working together to make the National Fire plan a 
success. Their long tireless hours and their dedication to make this 
Plan a success is commendable.
                               __________
    Mr. McInnis. With that, we will call up the second panel. 
Mr. Hartzell, thank you for attending today. Lyle, thank you 
for coming out. I am familiar with both of you. I appreciate 
the effort.
    I am very excited to hear your testimony. We had a visit 
the other day, for the rest of the people in the room, which I 
thought was very interesting. I think we are focusing on fire 
control. Whether we discuss biomass or whether we discuss the 
hiring of new firefighters, communication, of course, is the 
key. As the two gentlemen know, I was on Storm King Mountain 
when Storm King Mountain blew up. That was not a result of bad 
forest health. That was a result of poor communication, 
unfortunate weather, dry conditions, and the lightning storm.
    So, needless to say, not all efforts in fighting forest 
fires necessarily pertain to the management of that particular 
forest. Communication is critical. And we had a good discussion 
the other day--I hope that one of the two gentlemen will 
mention that--on coordination of firefighting. That was a major 
contributing factor to the fatalities that we suffered on the 
mountain during that fire.
    So, with that, I will turn to the ranking member very 
quickly for comment, and then we will turn it over to our two 
witnesses.
    Mr. Inslee. Thank you, Mr. Chair. My comments are brief. It 
is my belief that we face the prospect of a fire storm in the 
West this summer. It is my belief that the current budgetary 
projections will leave us grievously short of resources to deal 
with this. And if that occurs, it probably will not be the two 
witnesses' fault in this regard. It will be the U.S. Congress' 
and the White House. I am going to look forward to your helping 
us figure out what decisions need to be made on a budgetary 
basis to allow you to do your job to keep this natural disaster 
from occurring in the West this summer.
    Mr. McInnis. With concurrence from the ranking member or 
without objection from the ranking member, I am going to waive 
the 5-minute rule, because I think both of your presentations, 
number one, are absolutely critical and, two, based on what I 
have seen, will take longer than 5 minutes.
    Lyle, do you want to start off?

  STATEMENT OF LYLE LAVERTY, NATIONAL FIRE PLAN COORDINATOR, 
    FOREST SERVICE, UNITED STATES DEPARTMENT OF AGRICULTURE

    Mr. Laverty. Mr. Chairman, it is truly an honor to be here 
and have a chance to share with you this morning actions that 
we are taking regarding implementation of the National Fire 
Plan. I am here today, along with Tim Hartzell, to bring you up 
to date on what has been accomplished thus far and, perhaps 
more importantly, what we will be doing this summer to 
implement the provisions of the National Fire Plan.
    As the Governor really eloquently addressed, the fire 
season of 2000 certainly captured the attention of the American 
people on the need to find ways of protecting life and property 
and at the same time minimizing losses to natural resources.
    On September 8th, the Secretaries issued a report entitled 
``Managing the Impact of Wildfires on Communities and the 
Environment,'' and that report, which has been referred to as 
the National Fire Plan, contains a series of recommendations to 
reduce the impacts of wildland fires on rural communities and 
ensure that we do, in fact, have sufficient firefighting 
resources in the future.
    Mr. Chairman, the implementation of this National Fire Plan 
is well underway, and we have made significant progress to 
date. Cooperation between the Federal agencies, the Governors, 
in collaborations with the tribes and local communities 
probably is beginning to set a new standard and new model of 
how Government can work, in fact, responding to the needs of 
the people of this great country. We clearly recognize there 
are many challenges to complete this significant increased 
workload that has been designed as part of this plan.
    Long term, it is going to take many, many years of a 
continued commitment and investment of resources to effectively 
reduce the impacts of wildland fire on rural communities. And 
if there is a theme that we will share with you over and over 
again, it is that this is a long-term journey; 1 or 2 or 3 
years will not do it. And we need to be able to ensure that we 
are in this for the long term, but at the same time that we are 
responsible with the resources that are given.
    Even though it is early in the year, we have made really a 
good start in some major areas of accomplishment. We have, in 
fact, treated over 80,000 acres of some of the areas that were 
damaged during the 2000 fire season. We have restored 713 miles 
of roads, we have treated about 245 miles of trail, and we are 
doing those emergency actions to protect those resources.
    We have already reduced fuels on over 400,000 acres of the 
national forests of the 1.8 million acres that we plan to treat 
this year. We have been involved collectively in terms of 
hiring the resources to staff the fire organizations, and we 
have hired over 815 permanent firefighters, and we expect to 
hire another 1,900 additional firefighters before April 30th.
    In addition, we plan to acquire new engines, new fire 
engines. We are going to bring new equipment under contract and 
begin to staff the organization to be responsive to what we 
know is the potential for another fire season.
    We have already started the process of providing funding 
and training and equipment to over 4,000 volunteers just on the 
Forest Service side. We published a list of the communities 
that are at risk, which was prepared by the National Governors 
and the tribes to begin to start the discussion on how can we 
begin to more effectively target and focus our fuels reduction 
projects on those communities that are at greatest risk.
    We have initiated action on over 63 research projects, 
which are what I would consider to be the intellectual mutual 
fund in terms of how are we going to begin to acquire new 
knowledge about the effects of fire and these actions on 
resources in this country.
    We have developed the framework that the Governor 
referenced in terms of a draft of a national 10-year 
comprehensive strategy with the States and the tribes as full 
partners--full partners--in the implementation of the National 
Fire Plan. Very, very significant.
    Our success to date, beginning with the definition of the 
wildland-urban interface communities, the hiring of 
firefighters, and the ongoing rehabilitation and restoration of 
burned areas, fire-wise education work, is evidence of the 
strong start. We are committed to increasing the Nation's 
firefighting capability and to protect communities and restore 
resources. But it is going to take longer than a year.
    After my partner, Tim Hartzell, presents his remarks, we 
are going to take a few minutes to expand on the key points and 
add some additional specifics and then answer any questions 
that you or any of the members of the Committee might have.
    Thank you again for the opportunity just to share with you 
some great results that we will pick up on a little bit more.
    [The prepared statement of Mr. Laverty follows:]

  Statement of Lyle Laverty, Associate Deputy Chief and National Fire 
    Plan Coordinator, Forest Service, U.S. Department of Agriculture
    Mr. Chairman and members of the subcommittee: Thank you for the 
opportunity to appear before you today to talk about the implementation 
of the National Fire Plan. I am Lyle Laverty, Associate Deputy Chief 
and National Fire Plan Coordinator of the Forest Service. I am here 
today to bring you up to date on what has been accomplished thus far 
and what we plan to do next.
    The severe fire season of 2000 captured the attention of the 
American people on the need to find ways to protect life and property 
and minimize losses of natural resources. On September 8, the Secretary 
of Agriculture and the Secretary of the Interior issued a report 
entitled, ``Managing the Impact of Wildfires on Communities and the 
Environment. The report, referred to as the National Fire Plan, 
contains recommendations to reduce the impacts of wildland fires on 
rural communities and ensure sufficient firefighting resources in the 
future.
    Mr. Chairman, implementation of the National Fire Plan is well 
underway and significant progress has been made. However, we recognize 
that there are many challenges to complete the significantly increased 
workload. Long-term, it is going to take many years and a continued 
commitment in resources to effectively reduce the impacts of wildland 
fire on rural communities.
    Even though it is early in the year, we have made a good start with 
the following:

<bullet> Treated over 80,000 acres, 713 miles of roads and 245 miles of 
    trails to restore and rehabilitate areas damaged during the 2000 
    fire season.
<bullet> Reduced hazardous fuel on over 400,000 acres of the 1.8 
    million acres we plan to treat this year.
<bullet> Hired over 850 new permanent fire personnel and expect to have 
    another 1900 (650 permanent, 1250 temporary) hired by April 30, 
    2001 along with planning to acquire 412 fire engines and the 
    services of an additional 47 contracted helicopters to provide the 
    highest practical level of firefighting capability.
<bullet> Initiated assistance for training and equipment for 4000 
    volunteer fire departments.
<bullet> Published a preliminary list of communities at risk prepared 
    by the States and Tribes to ensure that we increase the focus of 
    our future efforts on reducing fire risk in the areas adjacent to 
    these communities.
<bullet> Started 63 research projects to increase scientific knowledge 
    in support of the National Fire Plan.
<bullet> Initiated discussions on a framework and draft of the national 
    ten-year comprehensive strategy for the National Fire Plan.

    Before I talk more about our accomplishments and our planned 
actions let me explain how conditions on our forests and rangelands 
developed the level of uncharacteristic fire risk that exists today.

                               BACKGROUND
Fire conditions
    Decades of excluding fire from our forests and past management 
practices have drastically changed the ecological condition of western 
forests and rangelands and dramatically affected fire behavior. A 
century ago, when low intensity, high frequency fires were commonplace, 
many forests were less dense and had larger, more fire-resistant trees. 
Over time, the composition of our forests has changed from more fire-
resistant tree species to species non-resistant to fire such as grand 
fir, Douglas-fir, and subalpine fir.
    Fire ecologists point out the paradox of fire suppression: the more 
effective we become at fire suppression, the more fuels accumulate and 
ultimately create conditions for the occurrence of more intense fires. 
As it became Federal practice to extinguish fires aggressively in the 
west, firefighting budgets rose dramatically and firefighting tactics 
and equipment became increasingly more sophisticated and effective. In 
the early 1930s the annual acreage burned by wildfires in the lower 48 
states was about 40 million acres a year. In the 1970s because of our 
effective fire suppression the annual acreage burned by wildfires in 
the lower 48 states dropped to about five million acres. In the 1990's, 
the annual average acreage burned by wildfires was less than 4 million 
acres.
    In addition to changes in tree species and ecological conditions of 
forests and grasslands more communities are at risk of wildfire than in 
earlier years. During the last two decades dramatic increases in the 
population in the West has resulted in housing developments in fire-
prone areas, often adjacent to Federal land. This area where human 
development meets or intermingles with undeveloped wildland is called 
the ``wildland-urban interface.''
    Reversing the effects of a century of aggressive fire suppression 
and past management practices will take time and money targeted to high 
priority areas to protect people, communities, readily accessible 
municipal watersheds, and habitat for threatened and endangered 
species. Although not all areas will need to be treated, the Forest 
Service and the General Accounting Office have estimated that there are 
around 60 million acres at risk of uncharacteristic wildfire in the 
interior West and more than 72 million acres nationwide.. Many of these 
acres are not in the wildland-urban interface and include acres distant 
from habitation.
    The Forest Service and its interagency partners have increased 
their efforts to reduce risks associated with the buildup of brush, 
shrubs, small trees and other fuels in forest and rangelands through a 
variety of approaches, including controlled bums, the physical removal 
of undergrowth, and the prevention and eradication of invasive plants. 
In 1994 the Forest Service treated approximately 385,000 acres across 
the United States to reduce hazardous fuels. In 2000 we treated over 
750,000 acres almost double our earlier efforts.
Addressing fire conditions: The key points of the National Fire Plan
    To address these changed conditions the recommendations in 
``Managing the Impact of Wildfires on Communities and the Environment'' 
and actions implementing the National Fire Plan focus on five key 
points:

<bullet> Firefighting. Be adequately prepared to fight wildland fire.
<bullet> Rehabilitation and Restoration. Restore landscapes and rebuild 
    communities damaged by the wildfires of 2000.
<bullet> Hazardous Fuel Reduction. Invest in projects to reduce fire 
    risk.
<bullet> Community Assistance. Work directly with communities to ensure 
    adequate protection.
<bullet> Accountability. Be accountable and establish adequate 
    oversight, coordination, program development, and monitoring for 
    performance.

    The report also recommended substantial increases in funding for 
the land management agencies to address the five key points.
    In response to the recommendations in the Report, Congress and the 
Administration increased funding for agency firefighting, fuels 
reduction, and other fire-related programs. We appreciate the quick and 
decisive actions of Congress and the Administration to fully fund the 
fire budgets for both the Department of Agriculture and the Department 
of the Interior. (See Appendix A.)
    The Conference Report for P.L. 106-291 contains explicit direction 
for the implementation of the National Fire Plan. The Appropriations 
conferees directed the agencies to work closely with State and local 
communities to maximize benefits to the environment and to local 
communities. They directed the agencies to seek the advice of the State 
Governors and local and tribal government representatives in setting 
priorities for fuels treatments, burned area rehabilitation and public 
outreach and education. The Appropriations conferees also directed the 
Departments of the Interior and Agriculture to work together to 
formulate complementary budget requests and to carry out the other 
tasks, including developing criteria for rehabilitation projects, 
developing a list of all communities within the vicinity of Federal 
lands at high risk from fire, and working collaboratively with the 
State Governors to develop a 10-year comprehensive strategy. (See 
Appendix B.)

               ACCOMPLISHMENTS OF THE NATIONAL FIRE PLAN
    Implementation of the National Fire Plan is well underway. Since 
the very beginning we have worked collaboratively with Department of 
the Interior agencies, the Governors, State Foresters, tribal 
governments and county officials.
    Our implementation efforts focus on addressing the five key points 
of the National Fire Plan. The status of our actions include the 
following:
Firefighting readiness
    We are focusing on increasing firefighting capability and capacity 
for initial attack, extended attack, and large fire support. We believe 
our efforts will keep a number of small fires from becoming large, 
better protect natural resources, reduce threat to adjacent 
communities, and reduce the cost of large fire suppression.
    The expanded capacity will be used in a manner consistent with our 
knowledge and experience of the causes of fire risks. The agency will 
be guided by fire management plans that we intend to have updated and 
completed by the end of 2001.
    To date the Forest Service has hired over 850 new permanent fire 
personnel and plan to hire a total of over 2,750 (1500 permanent, 1250 
temporary) to provide the highest practical level of protection 
efficiency. This will include twelve new hotshot crews for a national 
total of 74 crews. We plan to acquire an additional 412 fire engines 
and have contracts for an additional 47 helicopters for a total of 106 
helicopters and 40 fixed-wing aircraft. In addition we will have 
another 500 aircraft available through ``call when needed'' contracts. 
We are also in the process of awarding the retardant contract for 2001-
2003 to ensure adequate supplies.
    In addition, we will construct several new fire facilities and 
increase the level of maintenance on existing fire facilities to 
support initial attack. This construction includes projects such as a 
new airtanker base and national fire cache in Silver City, New Mexico, 
new hotshot crew housing in Ft. Collins, Colorado, and a new helitack 
base in Price Valley, Idaho.
    The agency is also investing in applied research to improve the 
efficiency, effectiveness, and safety of the national firefighting 
effort. In addition to the progress made in the Forest Service research 
and development program, the Joint Fire Science Program (JFSP) has been 
increased. This additional applied research and development will assess 
fire behavior and fire restoration techniques during and immediately 
after fire events; upgrade aircraft-based tools for monitoring fire 
behavior; increase understanding about post-fire conditions, fire 
effects, and the effectiveness of past land management treatments; and 
establish protocols for evaluating rehabilitation measures. The 
Secretaries of Agriculture and the Interior have also established a 
stakeholder advisory committee to advise the JFSP Governing Board. The 
committee plans to hold its first meeting in April.
Rehabilitation and restoration
    We are focusing rehabilitation efforts on restoring watershed 
function, including protection of basic soil, water resources, 
biological communities, and prevention of invasive species in priority 
watersheds. Healthy, diverse ecosystems are resilient and less likely 
to produce uncharacteristically intense fires when they burn.
    Burned area emergency rehabilitation (BAER) teams mobilized after 
the 2006 fire season. Plans were developed and approved for over $40.8 
million of emergency stabilization for 235 projects on moderately and 
severely burned National Forest System lands. Most of the emergency 
treatments were completed before winter, including 62,000 acres of 
grass seeding, 3,606 acres of mulching, 17,886 acres of intensive log 
and wattle erosion barriers, and drainage improvements on 713 miles of 
roads and 245 miles of trail. For example:

<bullet> In Idaho, 650 acres were seeded, 242 acres intensively 
    mulched, and erosion control barriers installed on 3,157 acres on 
    the Trail Creek fire on the Boise NF.
<bullet> In Montana, drainage was improved on 410 miles of road and 
    4,732 acres of intensive erosion control barriers were installed on 
    the Skalkaho-Valley fire on the Bitterroot NF.
<bullet> In California, 890 acres were seeded and 200 acres intensively 
    mulched on the Manter fire on the Sequoia NF.
<bullet> In New Mexico, 13,500 acres were seeded, 3,070 acres 
    intensively mulched, and 5,170 acres of erosion control barriers 
    installed for the Cerro Grande fire on the Santa Fe NF.
<bullet> In Colorado, 1,000 acres of mulch and erosion barriers are 
    being installed on the Bobcat burn.

    The remaining acres will be treated as soon as the land is 
accessible this spring.
    In addition, long-term rehabilitation and restoration on over 400 
projects is currently underway. These activities will include 
reforestation, replacement or repair of minor facilities, treatment of 
invasive species (including noxious weeds) resulting from fire, survey 
and monitor impacts to wilderness, survey and rehabilitate impacted 
heritage resources, reconstruct fencing, restore critical habitat and 
restore impacted trails.
    We are also conducting additional research in rehabilitation and 
restoration methods. One example is research at Rocky Mountain Research 
Station quantifying the soil and water quality consequences of 
catastrophic fire, using the Cerro Grande and other southwestern fires 
as study sites.
Hazardous fuel reduction
    We are focusing hazardous fuels reduction projects in communities 
at risk, readily accessible municipal watersheds, threatened and 
endangered species habitat, and other important local areas, where 
conditions favor uncharacteristically intense fires. We will remove 
excessive vegetation and dead fuels through thinning, prescribed fire, 
and other treatment methods.
    Following Congressional direction we asked State, local and tribal 
governments, and interested parties to identify urban wildland 
interface communities within the vicinity of Federal lands that are at 
high risk from wildfire. The Departments of Agriculture and the 
Interior published a preliminary list in the Federal Register on 
January 4, 2001. The States and Tribes each developed criteria for 
selecting communities that resulted in some States listing numerous 
communities and others listing only a few. The Departments of 
Agriculture and the Interior have asked the Governors and the National 
Association of State Foresters to help the Federal Agencies to work 
with Tribes, States, local governments, and other interested parties to 
develop a national list based on uniform criteria.
    We have completed hazardous fuel reduction on over 400,000 acres of 
the 1.8 million acres that are planned for treatment this fiscal year. 
Many of these projects focus on wildland-urban interface areas. In the 
future, we intend to focus the majority of this work on wildland-urban 
interface areas where hazardous fuel conditions exist near communities.
    In addition to work on Federal lands, we will also provide 
technical and financial support to State and local fire departments to 
implement 329 projects to improve conditions on wildland-urban 
interface areas on non-federal lands. The States will also be 
implementing projects in impacted areas using the Community and Private 
Land Fire Assistance funding.
    Research is also focusing on hazardous fuels projects. An example 
is work to characterize and map vegetation and fuels from remote sensed 
data to locate urban interface areas exposed to high fire potential. 
These methods will be helpful in prioritizing investments in fuels 
treatment.
    Our success in accomplishing hazardous fuel reduction objectives 
will be largely dependent on focusing our treatments in the areas of 
greatest need. Our goal is to do this efficiently and with the least 
amount of controversy, getting the most amount of high-priority work 
done. Protecting communities and restoring forests represents the sort 
of win-win solution that will allow us to build a strong constituency 
for ecologically sensible active management.
Community assistance
    We are assisting State and local partners by providing funding 
assistance to rural and volunteer fire departments and through programs 
such as FIREWISE to educate homeowners to take actions to reduce fire 
risk to homes and private property.
    We plan to expand community assistance to rural volunteer fire 
departments to increase local firefighting capacity. Rural and 
volunteer fire departments provide the front line of defense, or 
initial attack, for up to 90 percent of communities. Strong readiness 
capability at the State and local levels goes hand-in-hand with optimal 
efficiency at the Federal level. We will increase our assistance for 
training and equipment to 4,000 volunteer fire departments in high-risk 
areas.
    The Forest Service has been working with the State and private 
landowners, the National Fire Protection Association, and local 
firefighting organizations to help ensure that home protection 
capabilities are improved and to educate homeowners in fire-sensitive 
ecosystems about the consequences of wildfires. Also homeowners are 
being taught techniques in community planning, homebuilding, and 
landscaping to protect themselves and their property. Efforts include 
FIREWISE and other high priority prevention and mitigation education 
programs, as well as fuels reduction, defensible space development, and 
community hazard mitigation on non-federal lands.
    We expect implementation of the National Fire Plan can create over 
8,000 new jobs in rural areas and provide economic opportunities for 
rural forest dependent communities.
    We are also beginning research to test the effectiveness of 
different models of collaboration, education, and community actions and 
to compare different local regulatory and incentive-based policies for 
encouraging residents to adopt FIREWISE practices. These new efforts 
will provide useful insights and guidelines for implementing effective 
community-level programs for wildfire protection.
Accountability
    The agency is working to establish adequate oversight, 
coordination, program development, and monitoring for National Fire 
Plan performance to ensure accountability.
    A key component in ensuring accountability is tracking funding and 
accomplishments. In keeping with Congressional reporting requirements, 
the Forest Service is finalizing a database to track projects funded by 
Title IV funds. It will include project accomplishments and funding for 
work in hazardous fuels reduction, rehabilitation, and community 
assistance. Once it is fully operational--which is planned for the end 
of this month--we will be able to report, for example, numbers and 
types of rehabilitation work being done in a particular national 
forest, congressional district, or state.
    Of course, the Forest Service must be accountable for all funding. 
In Fiscal Year 2000, obligations in the Wildland Fire Management 
Appropriation totaled $1.5 billion, exceeding available funds by $274 
million. An anti-deficiency report was sent to President Clinton and 
members of Congress as required by law. This violation was caused by 
delays in entering suppression costs into the agency financial system. 
The agency is conducting an intensive Anti-Deficiency Act violation 
review to more fully determine the specific causes and implement 
procedures to prevent a reoccurrence.
    Another recent development associated with the implementation of 
the National Fire Plan is the ``Review and Update of the 1995 Federal 
Wildland Fire Management Policy.'' The Review and Update was completed 
in January 2001 in response to a request from the Secretaries of 
Agriculture and the Interior. The working team concluded that the 1995 
Federal Fire Policy is generally sound, but that some changes and 
additions are needed to address issues such as fire planning, program 
management and oversight, and program evaluation.
    If you refer to the list of Reporting Requirements in Appendix B, 
you will see the Forest Service and the Department of the Interior have 
accomplished several other important tasks and reported to Congress in 
a timely manner. These include a report on criteria for rehabilitation 
projects; a report on the need for revised or expedited environmental 
compliance procedures; and a financial plan and an action plan showing 
how agencies will spend the emergency funds.

                               NEXT STEPS
    The following are the next immediate actions to be taken by the 
Forest Service to continue implementation of the National Fire Plan:

<bullet> Complete the fuels management projects underway and continue 
    planning for 2002 focusing fuels treatments in urban interface 
    communities where they are most likely to reduce risk effectively.
<bullet> Continue work on a long-term strategy for the National Fire 
    Plan (2002-2010) in collaboration with Governors and other 
    stakeholders.
<bullet> Complete the hiring of new fire personnel to produce an 
    extremely high level of firefighting capability.
<bullet> Complete analysis of fire risk and integrate with other 
    resource information to prioritize treatment areas.

    We will continue to provide timely information to Congress and 
other interested parties about the National Fire Plan.

                                SUMMARY
    Mr. Chairman, my staff and I will continue to work closely with the 
Department of the Interior Team to work with communities to restore and 
maintain healthy ecosystems and to minimize the losses from future 
wildfires on National Forest System lands, other Federal, State, 
Tribal, and privately-owned lands. Our successes to date--beginning to 
define the wildland-urban interface communities, hiring firefighters 
for the 2001 fire season, and ongoing rehabilitation, restoration, 
FIREWISE education work--is evidence of the strong start. However, our 
continued success will depend on what happens this field season.
    We are committed to increasing the Nation's firefighting capability 
and ability to protect communities and restore resources, but it will 
take longer than one year.
    This concludes my statement. I would be happy to answer any 
questions you or the Members of the Subcommittee might have.
                               __________
                               [GRAPHIC] [TIFF OMITTED] T0955.001
                               
                               [GRAPHIC] [TIFF OMITTED] T0955.002
                               
                               [GRAPHIC] [TIFF OMITTED] T0955.003
                               
                               [GRAPHIC] [TIFF OMITTED] T0955.004
                               
                               [GRAPHIC] [TIFF OMITTED] T0955.005
                               
                               [GRAPHIC] [TIFF OMITTED] T0955.006
                               
                               [GRAPHIC] [TIFF OMITTED] T0955.007
                               
                               [GRAPHIC] [TIFF OMITTED] T0955.008
                               
                               [GRAPHIC] [TIFF OMITTED] T0955.009
                               
                               [GRAPHIC] [TIFF OMITTED] T0955.010
                               
                               [GRAPHIC] [TIFF OMITTED] T0955.011
                               
                               [GRAPHIC] [TIFF OMITTED] T0955.012
                               
    Mr. McInnis. Thank you.
    Mr. Hartzell?

  STATEMENT OF TIM HARTZELL, DIRECTOR, OFFICE OF WILDLAND AND 
       FIRE COORDINATION, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Hartzell. Thank you, Mr. Chairman. My name is Tim 
Hartzell, and I am the Director of the Office of Wildland Fire 
Coordination in the Department of Interior. I really appreciate 
this opportunity to address the Committee concerning a natural 
resource effort that is, frankly, historic in its scope and 
unprecedented in both its innovation and collaboration, that 
is, implementation of the National Fire Plan.
    I am pleased to report to you that the Department of 
Interior firefighting agencies have already made significant 
and substantial progress in responding to the mandate and 
opportunity that Congress has given us in the appropriation 
language for Fiscal Year 2001 to minimize the occurrence of 
another fire season such as 2000, to lessen the danger to 
communities at risk, and to restore ecosystems and the natural 
role of fire, to protect our critical natural resources, and, 
most important, to keep our firefighters and public safe.
    We are pleased to speak to you about this historic 
initiative that is truly a new approach to solving resource 
management problems. The key to our initial success has been in 
our openness and our desire to work with States, local 
governments, and others as full and equal partners in 
identifying and finding solutions to problems. I certainly hope 
that this is a clear message that you hear throughout our 
testimony.
    At this time I would like to forego the balance of my 
submitted testimony so that my colleague and I can focus on the 
critical actions that we have completed to date under the 
National Fire Plan and talk to you about future actions and 
opportunities under the plan.
    [The prepared statement of Mr. Hartzell follows:]

     Statement of Tim Hartzell, Director, Office of Wildland Fire 
             Coordination, U.S. Department of the Interior
    Good morning Mr. Chairman and members of the Committee.
    I appreciate the opportunity to address this committee concerning a 
natural resource effort that is historic in its scope and presents a 
unique challenge, implementation of the National Fire Plan. My name is 
Tim Hartzell and I am the Director of the Office of Wildland Fire 
Coordination for the Department of the Interior. I am pleased to report 
that the Department of the Interior firefighting agencies have made 
substantial progress in responding to the mandate that Congress gave us 
in the appropriation language for FY 2001 to minimize the severity of 
another fire season such as we had in 2000, lessen the dangers to 
communities at risk, restore ecosystems and the natural role of fire, 
protect our critical natural resources, and most important, keep our 
firefighters and the public safe.
Background
    The 2000 fire season was long, stubborn, volatile and widespread. 
The fire season started on January 1st, when a small blaze ignited near 
Ft. Myers, Florida, and lasted well into the fall. As late as December, 
more than 14,000 acres burned east of San Diego, California, destroying 
fourteen structures.
    In total, almost 93,000 wildland fires burned close to 7.4 million 
acres. While neither the number of fires nor the number of acres 
approached all-time records, the conditions, fire behavior and 
potential for an even more explosive season were perhaps unparalleled 
in the last fifty years. The intensity of the fires was the result of 
two primary factors: a severe drought, accompanied by a series of 
storms that produced millions of lightning strikes and windy 
conditions, and the long-term effects of more than a century of 
aggressively suppressing all wildfires, which has led to an unnatural 
buildup of brush and small trees in our forests and on our rangelands.
    The 2000 fire season also caught the attention of the public. In 
early August, President Clinton visited a battalion of soldiers from 
Ft. Hood, Texas, pressed into duty as firefighters on the Burgdorf 
Junction Fire, near McCall, Idaho. During that trip, President Clinton 
asked the Secretaries of Agriculture and the Interior to develop 
recommendations on how to reduce the impacts of fire on rural 
communities and ensure sufficient firefighting resources for the 
future. On September 8th, the Secretaries responded with a report 
entitled, ``Managing the Impacts of Wildfires on Communities and the 
Environment: A Report to the President in Response to the Wildfires of 
2000,'' also known as the ``National Fire Plan.''
    The National Fire Plan recommended that the Departments of 
Agriculture and the Interior seek an increased appropriation for fire 
management, and do several things:

<bullet> Continue to make all necessary firefighting resources 
    available.
<bullet> Restore landscapes and rebuild communities.
<bullet> Invest in projects to reduce fire risk.
<bullet> Work directly with communities.
<bullet> Be accountable.

    We are grateful that Congress took quick and decisive action once 
the report was issued. As a result, the wildland fire budgets for both 
the Department of the Interior and Department of Agriculture were 
substantially increased for FY 2001.
    At present, we are concentrating our efforts in the Department of 
the Interior on three main areas: tire preparedness, fire operations, 
and assistance to rural fire districts. Later in my statement, I will 
detail some of the steps that have been taken and will be taken in the 
coming months to address these three critical areas.
Accomplishments to date
    The FY 2001 appropriation provided an injection of critically 
needed support and funding for wildland fire and resource management. 
Although the agencies have managed wildland fire in the past as 
efficiently and safely as possible, the FY 2001 appropriation provided 
a much needed boost to ensure that adequate resources are available in 
the face of today's significant fire and resource management issues, 
such as rangeland and forest health, the increasing size and intensity 
of wildland fire that is resulting from much of the land's unhealthy 
state, and the ever-expanding wildland-urban interface. Late in 2000, 
the Department of the Interior and the USDA Forest Service began 
implementation of the National Fire Plan by detailing support, 
direction and funding for wildland firefighting agencies to better 
manage fire and resources on the land. An interagency steering group 
convened with representatives and leads from each Federal wildland 
firefighting agency, including DOI's Bureau of Indian Affairs, Bureau 
of Land Management, National Park Service, Fish and Wildlife Service, 
and USDA's Forest Service. Each of these agencies developed an agency-
specific National Fire Plan implementation strategy to provide field 
personnel with procedural guidance.
    The National Fire Plan is founded on a long history of cooperation 
among firefighting agencies. Its long-term success depends on 
cooperation and collaboration among Federal agency partners, Tribal, 
State, county and local governments, contractors and other service 
providers, and users of Federally-owned land. As soon as agencies 
received the FY 2001 budget, National Fire Plan leads from the 
Departments of Agriculture and the Interior met with such partners as 
the National Association of State Foresters, the Western Governor's 
Association, and the National Association of Counties, to discuss the 
ramifications of the FY 2001 appropriations.
    Within weeks of the passage of the FY 2001 Appropriations Act, 
requests for pertinent data and status reports were sent to the field 
to determine staffing, rural fire district, and planning needs, and to 
determine which hazardous fuels treatment projects are ready for 
implementation in FY 2001 and which remain in the planning stages. 
Deferred maintenance and capital improvement projects were prioritized 
and allocated, and project tracking systems were developed. Weekly 
interagency and agency meetings, satellite broadcasts and information 
bulletins help coordinate efforts and disseminate information 
throughout the agencies.
    In January 2001, the Department of the Interior and the Forest 
Service issued the ``Review and Update of the 1995 Federal Wildland 
Fire Management Policy.'' This report came in response to a request 
from the Secretaries of Agriculture and the Interior. The National Fire 
Plan is built upon the foundation and framework of the Review and 
Update. The Review was conducted by 14 Federal agencies and the 
National Association of State Foresters, who concluded:

<bullet> The 1995 Fire Policy is still sound, but additional emphasis 
    is recommended on science, outreach and education, restoration, and 
    program evaluation.
<bullet> The fire hazard situation is worse than predicted in 1995.
<bullet> The scope of the Urban Wildland fuels hazard problem is even 
    more complex and extensive than predicted in 1995.
<bullet> Additional research is needed on the effectiveness of 
    different fuels treatment options, and post-fire rehabilitation 
    activities.
<bullet> Additional collaboration and integration of all Federal 
    agencies with land management responsibility as well as non-Federal 
    agencies is needed.

    The National Fire Plan addresses these concerns by:

<bullet> Increasing fuels hazard treatment activities for DOI to a 
    planned target of 1.4 million acres of Federal land in FY 2001. 
    This represents an increase from an average of 800,000 acres of 
    fuels treatment activities.
<bullet> Increasing on-the-ground fuels hazard reduction work in FY 
    2001 around a greater number of vulnerable communities, and by 
    developing a collaborative partnership with the State Foresters and 
    others to design a long-term fuels treatment strategy in the Urban 
    Wildland interface.
<bullet> Increasing research in: (a) the economic and environmental 
    consequences of fuels treatment alternatives in a variety of fuels 
    types across the country; (b) the effectiveness of post fire 
    rehabilitation techniques including the control of noxious weeds 
    and invasive species.
<bullet> Increasing outreach and partnership activities with the 
    Western Governors' Association, the National Association of 
    Counties, Tribes, other Federal partners, and nongovernmental 
    organizations in designing a 10-year strategy to restore health to 
    fire adapted ecosystems and a plan of action to implement the NFP.

    Also in January 2001, the Department of the Interior completed an 
action plan to implement the National Fire Plan. This action plan 
contains proposed accomplishments for FY 2001 in wildland fire 
preparedness, operations, and rural fire assistance. It addresses 
actions needed to implement the National Fire Plan, including:

<bullet> Hiring additional personnel and obtaining needed equipment.
<bullet> Completing deferred maintenance and construction.
<bullet> Enhancing fire science work.
<bullet> Planning and implementing hazardous fuels treatments.
<bullet> Planning and implementing burned area rehabilitation.
<bullet> A financial plan for complying with Title IV of the 2001 
    Appropriation Act.

    We divided our accomplishments under the National Fire Plan into 
the three key areas: fire preparedness, fire operations, and rural fire 
district assistance.
Fire preparedness
    Wildland fire preparedness provides agencies with the capability to 
prevent, detect and take prompt, effective initial attack suppression 
action on wildland fires. Preparedness includes staffing, aircraft and 
equipment, maintenance and construction, fire science and research, and 
the associated Federal acquisition practices.
    Interior and Forest Service personnel have been working together to 
create consistency in position classifications. Outreach and 
recruitment to obtain diverse, well-qualified candidates began in 
December 2000 to fill firefighter, fire manager and support positions, 
and for fire and fuels specialists. Many of these positions have been 
advertised jointly and centrally to eliminate duplication of effort and 
to streamline the application process.
    We are contracting for the use of an additional 16 aircraft, and we 
purchased equipment, including 40 new heavy engines, 43 light engine 
upgrades, 14 crew carriers for Hot Shot crews, 7 water tenders, 5 
helitack trucks, and 3 dozers and lowboys. Although this equipment has 
been purchased in 2001, some of it will not be delivered until 2002.
    Within the Department of the Interior agencies, 50 fire facilities 
require maintenance or construction. These projects have been 
prioritized and the funding has been allocated.
    The Joint Fire Science Program, a six agency partnership to address 
wildland fuels issues, was established in 1998 to fill the gaps in 
knowledge about wildland fire and fuels. The purpose of the Program is 
to provide wildland fire and fuels information and tools to specialists 
and managers who make wildland fuels management decisions. The 
information and tools will also help agencies develop sound, 
scientifically-based land use and activity plans. The Joint Fire 
Science Program will fund important new research to explore effective 
methods of mapping and treating fuels. The program will also direct a 
significant portion of funding to answer questions about important 
regional or local suppression, fuels management and rehabilitation 
needs. The Department of the Interior and the Forest Service recently 
issued a request for proposals for fire science projects. We expect new 
proposals to focus on the feasibility of developing a locally-based 
biomass conversion industry. Other proposals will examine carbon 
storage, soil compaction, water quality, and habitat as they relate to 
fuels treatments. We have also requested proposals to determine the 
cumulative effects of fuels manipulation on fire behavior and severity, 
wildlife populations, and habitat structure. In addition, on January 
18, 2001, we established the Joint Fire Science Program Stakeholder 
Advisory Group under the Federal Advisory Committee Act (FACA). The 
purpose of the Group is to advise and assist the Secretaries of 
Agriculture and the Interior, through the Joint Fire Science Program 
Governing Board, on priorities and strategies for completing wildland 
fire and fuels research and implementing research findings.
    The National Fire Plan calls for a dramatic increase in the amount 
of fuels reduction and fuels management work, and much of this work is 
targeted for completion by independent contractors or through service 
agreements. In December 2000, an interagency team of contract and fuels 
specialists met in Boise, Idaho, and developed model contracts and 
agreements that agencies will use for fuels reduction, rehabilitation 
and restoration projects, and model grants and cooperative agreements 
to assist communities and rural fire departments. We created a web site 
that houses these model contracts so that each field office can access 
them easily, saving valuable time and effort, and increasing 
consistency among agencies.
    Although fuels management by contract has grown over the last 10 
years, there is still a need to foster growth in the number of 
contractors available. A primary focus of the 2001 appropriation is to 
facilitate awards to firms that will hire locally. Although the term 
``local'' is undefined, managers and contracting personnel will 
emphasize the use of sealed bid awards to firms that are in closer 
proximity to project work and best value awards to firms that commit to 
specific plans to hire local workers.
    The interagency contract and agreement team has developed an 
outreach plan that will:

<bullet> Locate firms that are not currently active in bidding or 
    proposing on Government procurement for fuels management contracts.
<bullet> Introduce local independent contractors to the benefits of 
    contracting for this type of work with the Government.
<bullet> Encourage continued participation by firms that currently have 
    fuels management contracts.
Fire operations
    Wildland fire operations include suppression, burned area 
rehabilitation and fuels management, including fuels reduction in 
wildland-urban interface areas that pose a risk to people, property and 
natural resources. To better facilitate these operations, several steps 
have been taken:
    First, a list of communities most at risk from wildland fire in the 
wildland-urban interface (discussed in more detail later in this 
testimony) and hazardous fuels reduction projects within and around 
those communities has been developed. Work is continuing to refine the 
criteria and the list of communities at risk.
    Second, a cohesive fuels management strategy has been drafted that 
will provide a broad, national framework for Interior agencies to 
ensure:

<bullet> Effective collaboration among Federal agencies, Tribal, State 
    and local governments and other stakeholders.
<bullet> Alignment of all program areas to prevent further degradation, 
    and to work toward the common goal of reducing unnaturally intense 
    wildland fire.
<bullet> Integration of fire and resource management within and across 
    all agencies.

    Third, on February 7th, Secretary Norton approved the release of $4 
million to the U.S. Fish and Wildlife Service, and $2 million to the 
National Marine Fisheries Service, needed to perform consultations 
under Section 7 of the Endangered Species Act for work identified by 
DOI. This money will facilitate consultation for critical hazardous 
fuels treatment projects as implementation of the National Fire Plan 
progresses.
    Finally, both Departments are engaged with the Governors, Tribes, 
non-governmental organizations and others in an active and open 
partnership to develop a ten-year comprehensive strategy to implement 
collaboratively the National Fire Plan and to begin to effectively and 
efficiently manage the nation's hazardous fuels situation. This ten-
year strategy will unify State, Tribal, and Federal efforts to 
cooperate across jurisdictions, coordinate activities and maximize 
capabilities to reduce the impacts of wildfires on communities and the 
environment.
Rural fire department assistance (RFDA)
    The 2001 budget appropriation provided $10 million to the 
Department of the Interior for a new program to enhance the wildland 
fire protection capabilities of rural fire departments (RFD). In 
December 2000, representatives from each of the Interior agencies met 
and developed basic selection criteria for the distribution of these 
grant funds. Grants will be limited to $20,000 per RFD, and the RFDs 
that apply will be reviewed for criteria that include:

<bullet> Having an agreement in place with the State Forester or an 
    Interior agency.
<bullet> Serving a community with a population of less than 10,000, in 
    the wildland-urban interface.
<bullet> Using funding only for training, equipment and prevention.
<bullet> Sharing a minimum of 10 percent of the total cost.

    An Interior work group was formed to develop an interagency 
agreement/contract which will be used by field offices to facilitate 
the transfer of funds to rural fire departments. A draft of this 
document is currently undergoing field review and will be finalized in 
the next few weeks.
    The money for RFDA has been allocated by each Interior Bureau to 
field offices, and fire managers are working with partners at the local 
and regional levels to establish priorities and to allocate available 
funds.
Communities-at-risk
    The Secretaries of Agriculture and the Interior were asked in the 
FY 2001 Interior Appropriations Act (Public Law 106-291) to publish 
jointly in the Federal Register a list of all wildland-urban interface 
communities that are at high risk from wildfire.
    The list was published in the Federal Register on January 4, 2001. 
Communities on the list were proposed by States, Tribes and local 
governments. The criteria for listing varied from State-to-State, which 
explains why some States listed hundreds of communities, while others 
submitted a much smaller list. The list also identifies communities 
with ongoing fuels treatment projects and those with projects planned 
for FY 2001. A total of 37 States participated and more than 4,500 
communities were listed. Since then, four more States have submitted 
their lists, and the total number of communities has grown to more than 
6,400. We appreciate the work that went into the list, especially the 
work performed by the State Foresters and Tribes.
    Developing the list of communities was only part of the Federal 
Register notice published on January 4. The notice also provided a 
definition of wildland-urban interface, and included suggested criteria 
for categorizing interface communities and evaluating the risk to those 
communities. The January 4 list is a starting point. It needs to be 
refined, possibly narrowed, and focused so that we can set treatment 
priorities for the coming years. The list of communities far exceeds 
our hazardous fuel reduction capabilities.
    Revising the list is a formidable task. Working closely with the 
Western Governors' Association, we have developed a process to address 
this daunting task. Some communities are much more vulnerable to 
wildland fire than others. Our next task becomes one of identifying, 
again in collaboration with our Tribal, State and local partners, the 
communities in the vicinity of Federal lands that are most at risk, 
which are the places where we will begin hazardous fuels reduction 
work. The results of this effort will be published in the Federal 
Register later this spring. The Federal Register Notice will identify 
the full extent of the high-risk wildland urban interface problem along 
with communities where hazardous fuels reduction treatments will not be 
planned, and the reasons why.
    The revised lists of communities at risk in each State will be 
developed by an interagency team consisting of representatives of the 
Department of Agriculture, Department of the Interior, State Foresters, 
and Tribes. Representatives from other Federal agencies such as the 
Departments of Energy and Defense will be included where appropriate. 
Others who may be invited to participate include representatives of 
county government, local fire response organizations, State emergency 
management offices, and community forestry organizations. A specific 
process for refining the urban wildland communities list has been 
developed by the Forest Service, the Department of the Interior, and 
the National Association of State Foresters. We envision that these 
teams will continue and will serve the long-term goals of identifying, 
prioritizing and implementing fuels treatment projects, to ensure that 
the long-term needs of communities vulnerable to wildland fire are 
addressed.
    Existing project proposals in these identified urban wildland 
communities that have approved plans and completed environmental 
compliance will have the highest priority for fuels treatment, and work 
is already underway in many of these communities. DOI's projects will 
cover about 300,000 acres. Additional projects that can be readied for 
implementation this Fiscal Year will receive the next priority. 
Finally, for those newly identified projects or projects not ready for 
implementation, the planning process will be initiated toward future 
treatments and implementation schedules will be developed.
    A cornerstone of the National Fire Plan has been enhancing the 
communication for preparedness and strategic planning among all 
partners in the wildland fire management arena. To facilitate this 
objective, all of the National Fire Plan Coordinators from the 
Department of the Interior and its bureaus, as well as the Forest 
Service, and representatives from the Environmental Protection Agency, 
Council on Environmental Quality and others, assembled in Denver on 
February 21 and 22, 2001, to share concerns and issues, clarify roles 
and expectations, validate the importance of success, and define a 
management structure for collaboration at the geographic area level 
throughout the country. This meeting provided a springboard to unify 
State, Tribal and Federal efforts to cooperate across jurisdictions, 
coordinate plans and activities, and collaborate with local governments 
to implement efficiently and effectively the goals and commitments 
outlined in the National Fire Plan.
Conclusion
    We appreciate the opportunity to testify at this hearing. We are 
grateful that Congress has afforded firefighting agencies an 
opportunity to reverse the trend of deteriorating health for our forest 
and rangeland ecosystems. We view the funding for FY 2001 as an 
investment that will, in the future, help save communities, money, our 
natural resources, and the lives of firefighters and the public.
    Like any long-term investment, it will require patience. It took 
many decades for fuels build up to reach their current levels. The 
demands on public land and its resources will only increase in the 
future. It will take time for all of us, the Federal agencies, our 
Tribal, State and local partners, rural fire districts, elected 
officials and others, to ameliorate the volatile and dangerous 
situation that currently exists in many parts of our country. The 
Department of the Interior has made a commitment to see this process 
through to a successful conclusion. We intend to honor this commitment, 
and we look forward to your continued support.
    Thank you, again. I will be happy to answer any questions from the 
committee.
                               __________
    Mr. Hartzell. With that, I would like to call your 
attention to the five key points in the National Fire Plan 
which we have up on the poster board. Those are firefighting, 
rehabilitation and restoration, hazardous fuels management, 
community assistance, and accountability. And we would now like 
to spend a little bit of time talking to you about each of 
those key elements of the plan.
    The first component that I would like to talk about is 
firefighting and tell you what we have done from an Interior 
perspective to date. Firefighting is that component of the 
National Fire Plan that enables us to be adequately prepared to 
prevent, detect, and initially attack wildfires. To date, the 
Department of Interior has been successful in hiring 875 new 
employees. We have committed $30 million to reconstructing and 
repairing over 50 facilities. The facilities are necessary to 
provide and meet minimum housing standards for crew quarters, 
adequate storage for our engines, and to provide helitack 
bases.
    In addition, we have ordered a significant amount of 
equipment, including the contracting of 24 helicopters, 
requesting 62 engines, 6 bulldozers, a variety of crew 
transport vehicles, and 8 water tenders.
    In addition, I think it is important, Mr. Chairman, since 
you mentioned Storm King Mountain, that with the additional 
firefighters that we are hiring, training is going to be a key 
issue for us. We will put no firefighter in a position where 
they have not had adequate training on basic firefighting and 
behavior, standards for survival, and the importance of 
communication under duress. We will not place a firefighter in 
a position without adequate training. Safety is, under the 
National Fire Plan, job one for both our firefighters and the 
public.
    Mr. Laverty. Mr. Chairman, in addition to the components 
that Tim described in terms of the efforts that are underway in 
terms of the firefighting efforts, the funding that has been 
provided by the Congress is incredibly unique. This is probably 
the first time that I can recall in Forest Service history that 
we have been funded at this level of suppression forces and 
preparedness. Not only does that install the firefighting 
capability in the human resource, but it brings us on board 
with a lot of the equipment that Tim referred to. In addition 
to the engines, we are making some investments in a number of 
air tanker bases across the country that can help us in terms 
of being prepared. It brings on additional helitack bases so 
that we can have these resources in place in the right 
locations to deal with the kinds of field conditions that we 
have across the country. It is a major, major step forward, and 
I just cannot tell you how significant that is to both of the 
agencies.
    Recruitment has been a major, major task for us. We have 
never hired this many people in one block in the Forest Service 
history that I can recall. And the fact that we are trying to 
recruit and fill about 5,000 positions is an enormous 
undertaking, particularly as you look at the state of the 
economy. In Colorado, you can't go anywhere but you find help-
wanted signs, so there are just not a lot of people waiting to 
come to work for us. So we are really creative in terms of 
going out and holding job fairs. We have held job fairs, over 
35 job fairs across the country, to try to recruit people and 
identify candidates for these jobs.
    Between us, I think we have had in excess of 15,000 
applications for these jobs, so this is a major undertaking as 
we begin to prepare not only for this season but make that 
equipment in place for the long term.
    The other part that Tim addressed is the training and the 
supervisory capacity in terms of how do we supervise brand-new 
people. If there is a caution that comes to my mind, it is that 
we need to make sure that we are making those kinds of 
investments in the supervisory skills so that we are not going 
to put these new firefighters in harm's way. It is an enormous 
undertaking.
    Another area is the coordination that is taking place 
between the agencies that Tim and I have talked about. We are 
really focusing on how we can most effectively train these new 
people so that we are not duplicating efforts and we are being 
as efficient as we can with these funds that have come to us.
    Maybe we will go on to the next one, which deals with the 
restoration and rehabilitation of the burned areas. The second 
key area of the National Fire Plan addressed and recognized the 
need to rehabilitate and restore these intensively burned areas 
from the fires of 2000. You can see that between the two of us 
we have got probably in excess of four to five million acres 
that we plan to treat with a variety of techniques. Just as the 
Governor of Montana spoke about, the restoration and rehab, 
these activities are well underway. We responded back to the 
Congress in January in terms of a framework on how we were 
going to prioritize projects that came in for rehab and 
restoration. We submitted that in January, and those criteria 
have been applied. That was an interagency effort between the 
Interior Department and the Forest Service.
    We are well underway in terms of implementing rehab and 
restoration projects. Many of those projects started even 
before the smoke was out on the ground. We started doing much 
of that emergency work, and that is going to continue on 
through the summer.
    I should tell you that between the two of us, the two 
Departments, we received about $250 million in appropriations 
for rehab and restoration. The projects that came in just from 
the Forest Service were well in excess of $260 million. So 
there is a lot of work out there that needs to be done.
    Tim?
    Mr. Hartzell. I think it may be helpful to mention that in 
the congressional report on rehab, we were asked to indicate 
what criteria we would use to direct our rehabilitation and 
stabilization efforts. In summary, they were that our actions 
would be compatible with existing land use plans; we would take 
a full and open look at the projects and alternatives to 
complete them; rehab would be conducted in full cooperation 
with other partners; and rehab would be restricted to within 
the perimeter of the burned area.
    I would like to mention two important points regarding the 
rehab program that result from the National Fire Plan. Number 
one, we now have the flexibility and the opportunity to conduct 
rehab for up to three years after a wildfire, and during that 
period we can use these rehabilitation funds for replanting 
native shrubs, forbs, and grasses, and this is a significant 
addition and improvement to our rehabilitation program.
    Mr. Laverty. One of the other areas that I would just tag 
on to the rehab and restoration recognizes the issue of noxious 
weeds. And as we deal with noxious weeds and invasive species, 
this is a long-term commitment. It is more than just simply 
sending a crew out and monitoring some of these disturbed areas 
from the fires of 2000. But it is a long-term investment. If we 
do, in fact, find species coming into these sites, we are into 
really a war on weeds, and these rehab and restoration plans 
recognize the importance of monitoring and aggressive action on 
invasive species.
    The bar chart that Mary has up there just kind of gives you 
a graphic display of the rehab and restoration acreage, and you 
can see--in fact, as the Governor referenced this morning--that 
we burned in excess of 7 million acres, and between the two 
agencies we are treating about close to 5 million acres of 
that, the remainder being on State and private lands.
    This is a huge undertaking, and it cuts across not only 
just the Federal boundaries but it deals with State and private 
lands as well.
    Mr. Hartzell. I think at this time we should move on to our 
next key point, the hazardous fuels program. Under the 
hazardous fuels program, we have on the Interior side $195 
million that is going to enable us to treat almost 1.4 million 
acres; 309,000 of those are wildland-urban interface acres, 
acres around communities that are vulnerable to wildfire. The 
remainder of the acres are in priority watersheds.
    Our hazardous fuels program concentrates on those actions 
that we take to reduce fuel loadings and fire behavior 
potentials such as prescribed fire or mechanical or manual 
thinning or chemical means or any combination of the above.
    Lyle and I have a series of photos that we would like to 
share with the Committee, one, to give you an understanding of 
the fuel problem in inter-mountain shrub lands and another to 
give you a sense of the problem of fuel loading in our forest 
and timberlands.
    Mr. Laverty. The two photos that Mary has posted there show 
really a very graphic representation of what has happened 
across the interior West in terms of fuel conditions and in 
terms of structure and composition of the stands. That first 
photo in 1871 and the same photo back in 1982 just shows the 
dramatic transformation that has taken place. This could be 
replicated literally in 100 billion acres across the interior 
West. I think this is a great example of the kinds of 
situations that we are talking about. And as we begin to look 
at that wildland-urban interface in terms of everybody wants to 
live in the woods, this is the kind of situation that we are 
beginning to address.
    This is just another one. This is a photo series that many 
of you have seen. This represents the Lick Creek area in the 
Bitterroot National Forest in Montana. What it shows is the 
changes in stand structure and composition that takes place 
over time. The 1909 photo on the upper left there does, in 
fact, show some treatment on there, but I think what is 
important is you look at the relative changes in terms of the 
numbers of stems, the composition that has taken place on that 
same photo point over the next 80 years. So it is a graphic 
representation of the kinds of changes that we are talking 
about, not that that is a pure natural stand on the left side, 
but it does, in fact, give us a benchmark to measure what has 
taken place.
    Mr. Hartzell. I would like to spend a little time showing 
you a fuels problem that we have in shrub lands. This is a 
photograph of what we call a sagebrush steppe community in the 
Northern Great Basin. I would tell the Committee this is 
probably what the early explorer John Fremont saw when he came 
through the West and he described the sagebrush plains in his 
writings. The plant community you see right here is dominated 
by Wyoming big sagebrush, and the grass that you see, the very 
healthy and lush grass you see there is bluebunch wheatgrass.
    What this picture shows is ``healthy range'' or ``healthy 
lands'' or a ``healthy ecosystem.'' This is an excellent 
photograph to demonstrate what healthy rangeland looks like. It 
has a low density of shrubs that represent a variety of age 
classes, an abundance of bluebunch wheatgrass, a variety of 
small forbs and flowers and ground cover, which provides a 
variety of food for wildlife.
    This is an example of what happens when a wildfire occurs 
in a healthy shrub community. Historically, these sagebrush 
communities burned in a mosaic fashion with low fire 
intensities. And what you get, as you can see in the 
photograph, there are these pockets of unburned or lightly 
burned vegetation. The pockets of unburned sagebrush and grass 
provide a seed source for the burned areas within the perimeter 
of the fire. Typically, in these healthy sagebrush ranges fire 
recycled every 50 to 100 years, and it was vital to the renewal 
of these communities.
    The next photo I have got on display for you here typifies 
much of what we have in many areas of the inter-mountain West. 
This is a problem that probably is common on somewhere between 
100 and 140 million acres of rangelands in the inter-mountain 
West. What we have when we have these hot fires in cheatgrass, 
which is the golden grass you see there, forming a dense stand 
in the formerly open inner spaces between the shrubs that were 
inhabited by native plants, and this significantly increases 
the fine fuels.
    Now, once cheatgrass dries out, usually in mid-May to mid-
June, it is highly flammable and it easily carries a fire 
throughout the entire shrub community. Cheatgrass in this 
situation entirely changes the frequency, the intensity, and 
the behavior of wildfires. As a rancher said in 1928 in an 
Idaho Statesman article about cheatgrass, ``It grows in a day, 
it ripens in a day, and it blows away in a day.''
    Let me just say that this site right here represents a site 
that is salvable, both from a fuels management standpoint and a 
rehab standpoint.
    However, this is a photograph that shows what happens once 
a sagebrush community is totally invaded by cheatgrass and it 
reburns. The vegetation here, which used to be the beautiful 
bluebunch wheatgrass and a mixture of sage and forbs and 
flowers, has been totally converted to a monoculture of 
cheatgrass, which is an annual species, but, more importantly, 
it has been taken over by invasive weeds. We used to think 
cheatgrass was the bottom of the ecological spiral. No more. 
Now we have noxious weeds invading cheatgrass.
    I think you can all appreciate that this type of situation 
has negative impacts on rangeland health of the site as well as 
its value for a variety of multiple uses.
    The fire cycle in this photograph, rather than being 50 to 
100 years like healthy rangeland, is probably something in the 
vicinity of every 3 to 10 years. But, most importantly, those 
fires are considerably more dangerous for our firefighters to 
fight. An Oregon study found that fires in this type of range 
system are 500 times more likely to start and burn than in 
healthy native rangelands.
    I have got two photos here I would like to close with that 
depict the fuel system conditions on our inter-mountain brush 
lands. This fire right here shows what was very typical 
throughout much of the Great Basin in 1999. In five days alone 
in the State of Nevada, there were literally tens of thousands 
of lightning strikes, and more than 1.5 million acres were 
consumed in that five-day period. As one veteran engine foreman 
said when he was dispatched to a fire and topped the ridge, 
when asked by dispatch, ``What is your situation?'' He said, 
``I don't know. Everywhere I look there's fire, and it's 
roaring.''
    Fires in this kind of situation are much larger and much 
more intense than the historical norm.
    I would like to leave you with an impression from this last 
photograph, the aftermath of these fires. Fires in these 
cheatgrass- and weed-dominated shrub lands burn at an 
incredible pace. It is not uncommon for these fires to consume 
5,000, 10,000, or even 20,000 acres in a day.
    What you see there is a burn that occurred in one day. What 
is left behind is certainly not encouraging?
    Mr. Laverty. To respond to these kinds of situations 
between the two Departments, our plan in the hazardous fuel 
component is to treat together about 3.2 million acres across 
the country, and, again, recognizing that this is a national 
plan, we will be treating lands in the West, as well as 
maintaining some of the conditions that we have been able to 
sustain in the East. In addition to the Federal land component, 
the Congress provided funding that has gone to the State 
foresters, and in addition to the Federal land treatment, we 
expect that there will be in the neighborhood of 400,000 acres 
treated on State and private lands as well. So it really 
becomes a part of a system rather than just simply a Federal 
land activity.
    Let's go to the last one there, just a reference photo. 
This is a photo from, I think, Mr. Otter's country, Mr. 
Simpson's country that shows a little bit graphically what can, 
in fact, happen in terms of treatments versus burned areas. You 
can see on both the left- and the right-hand side of that photo 
burned areas from the season of 2000. The area in the middle 
was pretreated. There had been some activity, some pre-
commercial--I am guessing there were some thinnings, some type 
of fuel activities, but it did have a prescribed fire in that 
center area. So we can begin to show anecdotally that we can, 
in fact, make a difference in terms of what happens with fire 
behaviors and fire effects in treated stands. Not that there is 
one prescription for all stands, but the fact that we know--and 
that really becomes an important part of the investment that 
Congress is making in the hazardous fuels, is that we have a 
focus on research in terms of helping us clearly identify and 
track the effectiveness of these investments over time. Can we, 
in fact, by good scientific modeling replicate these activities 
and come back and tell you that this is a good investment?
    The other part of the hazardous fuels, I would just share 
with you that we have been working with the Governors following 
the direction in the conference report. We published a list in 
January of communities that were at high risk. We worked with 
the Governors across the country. We published that list, and 
there are about 4,500 communities that were identified to be at 
high risk that are in the vicinity of Federal lands across this 
United States.
    We are currently working with the Governors, with the 
National Association of State Foresters, and the tribes to 
refine that list. And as you would expect, we have 48 States in 
this part of the country that all interpreted the direction one 
way. We have got 48 different interpretations. So we are 
working with the Governors and the tribes to refine that list, 
and our direction is to republish that list in May.
    Along with the list of revised communities will be then 
which of those communities do we actually have projects planned 
in 2001 and which communities do we have projects planned for 
2002. And we are working with the communities, with the States, 
with the Governors, with counties, to begin to identify where 
we should be placing--finding the criteria to place those 
projects in the out-years so that--recognizing that we don't 
have enough funds to treat all communities, but we can begin to 
assess some criteria in terms of ranking on how we are going to 
make those investments. It is a huge--and I say that 
recognizing that this is a monumental effort in terms of how we 
have been able to engage Governors, tribes, counties, and a 
variety of interest groups in this process. And I really 
believe that this is a model in terms of how we can show that 
we can manage America's resources in a fashion that really is 
responsive to the needs of people.
    Mr. Hartzell. Well, Lyle, before we leave fuels, we ought 
to talk to the Committee about contracting. The contracting 
procedures that we have in place are another excellent model or 
example of how the Federal Government can work together with 
States and locals in a more efficient manner. The Fiscal Year 
2001 appropriation was very specific that we should focus as 
much of our fuels treatment work through the contracting 
process as possible. We were concerned that we needed to 
minimize the duplicative work of agencies independently 
developing and administering their own contracts.
    So back in December of 2000, we called 75 to 90 interagency 
fuels and contracting specialists together at the National 
Interagency Fire Center. We invited States and tribes to that 
meeting. And the purpose of that meeting was to sort out what 
contracts everybody had in place for doing fuels treatment work 
and rehabilitation work and find the best of the best, and then 
use those contracts as models for conducting fuels and rehab 
work. The concept being we would identify these model 
contracts, we would refine them as appropriate, we would get 
them posted up on a website so that no matter what part of the 
country you were in, whether you were in Florida or Battle 
Mountain, Nevada, or eastern Oregon or Grand Junction, 
Colorado, if you needed to do a mechanical thinning, you could 
go to this website and pull down the appropriate contract and 
utilize it to complete your work rather than invest precious 
staff time in redeveloping a contract.
    The way we see this working in the model we have in place 
is that we have established 11 national geographic areas for 
contracting, and there will be a lead agency and a designated 
lead contracting officer for each of these areas, and then 
every agency within that geographic area can order against the 
lead agency contract.
    We believe that this process is going to have several 
important benefits. One I think I have already alluded to, 
minimizing the time of everyone developing their individual 
contracts, but also we think that through this process we are 
going to be able to create significant opportunities at the 
local level for jobs in small communities for fuels hazard 
reduction and rehab work.
    I think that the Committee can expect our contracting 
capacity, both internally and externally, to increase over the 
next few years. Right now I can tell you that this model 
contracting process is up and operable in three of the 11 
geographic areas: the Pacific Northwest, the Northern Rockies, 
and New Mexico and northern Arizona.
    Mr. Laverty. In addition to the contracting model which has 
dramatically changed how we do business together, our 
expectation is that 50 percent of those contracts will be local 
awards. This is a major effort as we look at trying to build 
capacity for the long term and how we are going to treat these 
kinds of landscapes so that we can deal with the kinds of 
outcomes that the Governor addressed this morning.
    One of the benefits will be, in fact, that we are going to 
employ people, but the long term is that we are going to 
improve forest health conditions across America. This is a 
major, major part of the fire plan, and huge benefits will come 
from this.
    The next key point is the issue of community assistance, 
and this one is a fairly broad and encompassing program area 
because these are in many cases funds that go back to the 
States and right into the local communities. The item that we 
have displayed is rural and volunteer fire assistance. And 
between the Forest Service and the Department of Interior, we 
will be providing funds and resources to 4,800 volunteer fire 
departments across America.
    For any of you that have been involved in fire departments, 
most of the funds are done by cake sales, cookie sales, 
raffles, and those types of things, just to buy fuel for the 
engines. Well, these funds go to these rural fire departments 
to provide personal protective gear for the firefighters. It 
helps them in terms of the acquisition of equipment so that 
they can be in place to respond.
    In most places across America, these are the people that 
are first responders even to wildland fires. Most of those 
folks are trained in structural fire. So these funds also 
provide us the opportunity to work with volunteer fire 
departments to help them in terms of training so that we can 
put those in a fire situation that will protect those folks 
from harm.
    Tim?
    Mr. Hartzell. We were delighted in Interior that the 
appropriation included a new $10 million appropriation for us 
to target rural fire departments. The purpose of that $10 
million is for us to enhance safety and strengthen the wildfire 
protection capability of small rural fire departments that 
support suppression on adjacent or intermingled Federal lands. 
Lyle talked about this, alluded to this, that in strengthening 
the capability of small fire departments, we are also going to 
increase the overall preparedness or readiness capacity of all 
partners in wildland fire protection.
    Now, the dollars that we got are going to be specifically 
targeted to these small communities, communities with a 
population of less than 10,000, and the money is going to be 
targeted for technical assistance, training, supplies, and for 
public education. The criteria for small fire departments 
obtaining this funding are actually just two: one, they have to 
have an agreement with the State forester or directly with a 
Department of Interior agency; and, secondly, the rural fire 
department needs to be able to provide 10 percent of the cost, 
whether it is dollars or in-kind services, we will provide the 
remaining 90 percent of the funding.
    How these rural fire departments can gain access to this 
money will be through a standard application that we have just 
finished developing, and that application must also be 
coordinated with the State forester. In order to get the money, 
we have to have an agreement with the fire department outlining 
each partner's roles, ours and theirs, before the money is 
transferred. And we also hope to have the standard agreements 
that each partner will enter into available on a website.
    We are very excited about this. I know we are going to have 
some big dividends and payoffs here. It is a pilot program, and 
we are going to be reviewing it and monitoring it carefully 
through the year, and we will make adjustments as needed.
    Mr. Laverty. Additionally, on the Forest Service side, 
there are funds that go straight to the state foresters to work 
with communities in terms of education. And the Governor 
addressed that this morning, that this becomes a very integral 
part of the whole fire plan, is what can landowners do in terms 
of personal responsibility to treat their landscapes to make 
them in fact more defensible.
    We have hosted a series of what we call Fire Wise Workshops 
around the country. In fact, a week ago Friday I was in Cedar 
Ridge, Colorado, with the State Forester's staff, the BLM staff 
and the Forest Service, we trained about 50 American Red Cross 
volunteers, that that is what they are going to do, they are 
going to go out, work with landowners, help them make an 
assessment of what do they need to do on their own lands to 
make them more defensible.
    In addition, these funds provide a capacity many times for 
the state foresters to work with landowners to actually do some 
land treatments. And these are really an important part of the 
entire system.
    The other part of the community assistance that I will just 
talk about deals with the Economic Action Plan. And in the 
Economic Action Plan, we are looking at some of the ideas, you 
know, what can we do with some of the small-diameter material? 
Can we in fact utilize some of these materials that you have 
seen graphically today? Can we use that to deal with some of 
the energy issues that we have in this country today? We 
believe that there are some opportunities for bioenergy. We 
have got some proposals. In fact, in California we have 
received probably responses in terms of 20 to 1 in terms of 
what we have capacity to fund versus what the proposals are. 
Many of these are focused on what we can do with small-diameter 
material and how we can utilize that material to deal with some 
of the energy needs that we have in the country.
    But the last point, and perhaps the most important one for 
Tim and I, deals with the issue of accountability. And if I 
could leave you with a term, we are the ``junkyard dogs.'' We 
are passionate about sharing with you very candidly that we are 
tracking agencies' performance. We are tracking our 
accomplishments on the ground so that we can come back to you 
with full integrity and tell you that this has been a good 
investment. We are working with GAO to look at can we in fact 
design monitoring systems to track our performance? We have 
research in place that I think will help us answer those 
questions on the real science basis behind these investments 
that we are making. We have put together a series of 
performance elements in line officers' performance standards, 
so that we can actually hold line officers accountable for 
these accomplishments. And we plan a series of program reviews 
in the field, and we have invited--the idea of bringing 
legislative staff along with us to spend time looking at the 
field in terms of are we asking the right questions, and really 
looking at the monitoring to see that these things are in fact 
meeting your expectations as well as ours.
    Congress has made a huge investment, and we believe that 
with almost $2 billion of new money, that we need to be as open 
and transparent as we can in terms of the tracking systems. We 
have invested in a framework that we can, probably by the end 
of this month, we will be able to, in real time, give you what 
has happened in each one of your states and each one of your 
congressional districts in terms of these projects.
    It is a huge step forward. Again, it is becoming a model, I 
think, in terms of how government can work. Tim?
    Mr. Hartzell. And each of the departments has regular 
weekly meetings to track the status of the National Fire Plan. 
Interior people participate in the Forest Service meeting. 
Forest Service people participate in the Interior meetings, so 
that we are lock-step and know what each other is doing. At the 
Interior Department, I can tell you that we have regular weekly 
meetings, where our four bureau directors report directly to 
the chief of staff on status and progress of implementing the 
National Fire Plan. We have safeguards in place to assure that 
the funds are only disbursed with the appropriate fund and 
project code, and that each of the individual bureaus involved 
in this program has assigned a lead and co-lead for 
implementing the National Fire Plan, and each of those bureaus 
has developed an implementation strategy document to assure 
that the five key points in the plan are carried forward.
    Also I think we probably need to call the attention to the 
fact that--I don't know how many, we have delivered numerous 
reports to the Congress as required in the 2001 Appropriations 
Act, in addition to a very detailed Financial and Action Plan 
which we have shared with you, and which we are monitoring 
diligently, and there are still several more reports to come.
    Mr. Laverty. Mr. Chairman, I would just tell you thank you 
for waiving the five-minute rule. We thought we could get 
through this quicker, but we have got a lot to share with you, 
but we truly appreciate your time and your interest in the 
National Fire Plan, and Tim and I would be honored to answer 
any questions you might have for us.
    Mr. McInnis. Clearly your testimony in the situation that 
we face is critical. That is why we have taken the time this 
morning. I would advise the Committee members, as well as our 
guests, that the meeting must adjourn at 12 noon. I expect a 
vote at that point in time anyway.
    In light of that, I would like to give an opportunity for 
members, each of the members, to ask a question. So I would ask 
the members to keep their questions abbreviated, and to not 
take your full minutes so that we can get all of the way 
around. In turn, I would also ask that our witnesses keep your 
answers very brief in consideration of that.
    I will ask three quick questions. If you can give me three 
quick answers, then I will go to the ranking member.
    What was the overall budget for these activities last year? 
Question No. 1.
    Question No. 2: How much was this increased for this fiscal 
year? Question No. 2.
    And Question No. 3: What do you see happening to this level 
of funding in the next fiscal year?
    So if you could quickly respond to those three questions, 
then I will yield to the ranking member.
    Mr. Laverty. Let me start quickly on the Forest Service 
side. In Fiscal Year 2000, all of the programs that dealt with 
the prior plan, we had about $1.2 billion. In 2001, the total, 
including the Title 4, brought us up to about $2.1, almost $2.2 
billion. So we experienced almost a $2 billion--or a $1.1 
billion increase on the Forest Service for all of the programs 
associated with the Fire Plan.
    Mr. McInnis. So approximately 100 percent increase?
    Mr. Laverty. Yes, sir.
    Mr. McInnis. And the next fiscal year?
    Mr. Laverty. Fiscal Year 2000?
    Mr. McInnis. 2002 is the one I meant.
    Mr. Laverty. 2002, we are waiting to see.
    Mr. McInnis. What is your proposal?
    Mr. Laverty. We think it is going to be solid. Our proposal 
is that we would like to see a continuation of what we have in 
2001 as the minimum.
    Mr. McInnis. Mr. Hartzell?
    Mr. Hartzell. Mr. Chairman, in Fiscal Year 2000 in the 
Department of Interior, our money for the fire management 
programs was $490 million, almost $491 million. In Fiscal Year 
2001, it was nearly $978 million, a $486 million increase, 
nearly a doubling.
    Mr. McInnis. Another 100 percent. Well, it is clear from a 
bipartisan point of view that the funding of this is a high 
priority. The President has made it very clear that it is a 
high priority for him.
    With that, I will yield to the ranking member.
    Mr. Inslee. Thank you, Mr. Chair. We had an earthquake in 
Seattle the other day, and the Federal Government did not 
predict it, but we are not being critical. Earthquakes are 
somewhat difficult to predict.
    Mr. Laverty. It is a different department.
    Mr. Inslee. Right. But it seems to me with the incredible 
drought in the West we have got up in the State of Washington, 
as you know, snowpacks, water levels in the 50 to 60 percent 
level. It seems to me we have very, very clear indications this 
is going to be a severe fire season. And I am concerned because 
at least the information I have received--and I am just looking 
at the proposed budget, as I understand it, from the White 
House dated February 28th--it actually would reduce the total 
fire plan spending, as I understand it, for both agencies by 
$500 million, which is about a 20 to 25 percent cut.
    Now, I understand a lot of that comes from essentially 
backing out emergency fire contingency which had occurred in 
previous years. But if you were to assume, as I do, that this 
year has every prospect of being as severe or more so than in 
previous years, aren't we looking at a demand that is likely to 
be as much or greater? And if so, ought we not to be looking 
for more resources in this budget cycle in advance rather than 
afterwards?
    Now, I understand it is difficult for you fellows in your 
position to talk about budget issues, but if you can talk about 
the threat fire-wise, perhaps we can get the sense of your 
drift.
    Mr. Laverty. Just to respond, I believe that, you know, 
part of the action that we will be able to take as agencies 
with this increased funding that we have in 2001, we will 
have--historically, we have been funded at about 60 to 70 
percent of what we call the most efficient level. This new 
funding that Congress has provided for us in 2001 will bring on 
additionally these 5,000 new firefighters plus the additional 
equipment.
    Part of these firefighters, we are going to add 12 new Hot 
Shot crews. We ran out of crews this summer. If we had had more 
fires--in fact, in Colorado, we were at the point where we 
would have had to say we are going to let this one burn and we 
are going to have to address this. So I think we are going to 
be in a much better position with increased capacity and 
capability for firefighting, and we have been talking already 
about how we can mobilize and move resources around 
strategically to deal with the different fuel conditions that 
we have across the country.
    So I think we are going to be there in a good position in 
2001. I think for 2002, you know, we are optimistic that the 
President's budget is, in fact, going to help us sustain that 
preparedness level and make those levels of fuels investment.
    Mr. Hartzell. I concur with my colleague. We will be able 
to maintain a level of funding that is going to help us reduce 
fire risk. We are going to have significantly more capacity 
because of the equipment we are bringing on this fiscal year, 
the majority of which will be online next year. In addition, we 
have and will continue to utilize the option of severity 
funding to pay in advance to bring resources online to deal 
with serious potential fire hazards such as you mentioned.
    Mr. Inslee. Well, I appreciate your efficiency, but I have 
to tell you that if we end up in a fire year as we did last 
year, which I believe we are looking at this year, I can't see 
how even Superman would wring out 25 percent efficiencies at 
the Federal budget, and you are looking at $500 million 
decreases. So I want to tell you I am concerned about that. I 
am sure there are others on a bipartisan basis very concerned 
about that. And we are going to work through this project.
    Jumping ahead to a more long-term plan, on a long-term 
issue, on our issue of fuel reductions, you are engaged in a 
major effort in that regard, and I think many people understand 
that our previously shortsighted policy of total fire 
suppression has, in fact, led to a major build-up in fuel 
loads. But there is a concern in the public--and I hear this a 
lot--that, in fact, there will be harvests driven by commercial 
incentives rather than for good thinning science. And I just 
wonder if you can tell us what measures have been adopted to 
date that we can tell the public to give them confidence that 
this is not being driven by commercial incentives rather than 
good science in thinning. If you can address that, I have heard 
some reports that we have dropped some of those requirements, 
like maximum diameter of harvest as well.
    Mr. Laverty. Maybe I could just take a start at responding 
to that question. If you consider--
    Mr. McInnis. We need to keep it brief. Let me interrupt for 
just a moment. We need to keep it brief because I do want to 
give an opportunity to other members to ask questions. We have 
got about 10 minutes.
    Mr. Laverty. If you talk about commercial harvest, 
commercial harvest is one tool to help us accomplish that, but 
it should not be the objective. The Governor was perfect this 
morning. We talk about, you know, what do we need to leave on 
the landscape. That should be the starting point. And then what 
do we take off that is the important part of it. But how we 
take it off, we shouldn't constrain ourselves. We talked about 
diameter limit. I appreciate the question. But I think we need 
to let that local prescription based on, you know, what is good 
science, what do the specialists tell us in terms of what needs 
to stay there, let that drive the prescription. Don't 
artificially constrain.
    Mr. Hartzell. I would also add that the prescription needs 
to be driven by conformance with local land use plans, and it 
needs to be driven by local collaboration to find the 
appropriate solution.
    Mr. Inslee. Well, we need to have a little more dialogue on 
this, and we want to defer. Mr. Chair, if I can put in two 
letters in the record by Mr. Udall, a unanimous consent 
request, signed by 26 members requesting environmental 
standards to be incorporated in any fire plan.
    Mr. McInnis. No objection.
    [The letters follow:]
    [GRAPHIC] [TIFF OMITTED] T0955.013
    
    [GRAPHIC] [TIFF OMITTED] T0955.014
    
    [GRAPHIC] [TIFF OMITTED] T0955.015
    
    [GRAPHIC] [TIFF OMITTED] T0955.016
    
    [GRAPHIC] [TIFF OMITTED] T0955.017
    
    [GRAPHIC] [TIFF OMITTED] T0955.018
    
                    U.S. Department of Agriculture,
                                            Forest Service,
                                                    Washington, DC.
Hon. Mark Udall,
House of Representatives, Rayburn House Office Building,
Washington, DC.
    Dear Congressman Udall: Thank you for your October 20, 2000, letter 
from you and your colleagues, to former Secretary of Agriculture Dan 
Glickman regarding the Fiscal Year 2001 Interior and Related Agencies 
Appropriations Act.
    The Department of Agriculture (USDA) shares your concerns about the 
implementation of the fuels reduction program. As directed in the 
Interior Appropriations Act, funds provided to reduce hazardous fuels 
will be focused in and around communities at risk. In these areas, 
protecting life and property from catastrophic wildfire will be the 
primary objective of the treatments. In complying with existing 
environmental laws, we will work closely with the local communities to 
design and implement these treatments. I assure you that 
environmentally appropriate safeguards will be maintained throughout 
the planning and implementation efforts to restore lands damaged by 
recent wildland fires and to mitigate future wildland fire risks 
through fuel reduction projects.
    The USDA Forest Service has developed the Cohesive Strategy, 
Protecting People and Sustaining Resources in Fire-Adapted Ecosystems--
A Cohesive Strategy. A suite of Federal laws and regulations guide 
management of fire-related activities on those lands. They include the 
Organic Act, Clean Air Act, Clean Water Act, Endangered Species Act, 
and National Environmental Policy Act (NEPA), among others, that will 
ensure clean air, clean water, and biodiversity in fire-adapted 
ecosystems. Long-term sustainability is a consistent theme embodied 
within these laws. The Forest Service's efforts to reduce hazardous 
fuels compliment long-term sustainability and will fully comply with 
these laws and regulations. All Forest Service activities will be in 
full compliance with procedures established by the Council on 
Environmental Quality for implementation of NEPA.
    The National Fire Plan is in response to Managing the Impact of 
Wildfires on Communities and the Environment, A Report to the President 
in Response to the Wildfires of 2000, which was submitted on September 
8, 2000. The Plan discusses the Forest Service's strategy to remove 
excessive fuel through vegetative treatments and prescribed fire in 
order to protect communities at risk, help prevent insect and disease 
damage, and generally improve overall ecosystem health and 
sustainability. It also discusses how the Forest Service's locally-led, 
integrated teams should coordinate environmental reviews and 
consultations, facilitate and encourage public participation, and 
monitor and evaluate project implementation.
    The 1995 Federal Wildland Fire Policy and Program Review reinforces 
the Forest Service's efforts to utilize the best available science that 
incorporates the role of fire in land, resource and fire management 
planning. Recently, the Agency requested a review of the 1995 Policy. 
The review found the basic policy sound. The review group made 11 
recommendations, which were accepted by the Agency, on ecosystem 
sustainability, restoration, science, communication, and evaluation. As 
the Forest Service continues to implement this Policy, planning efforts 
will ensure that full environmental safeguards, as required by laws and 
policies, are more than adequate to address all concerns raised in your 
letter.
    Thank you again for your thoughtful letter and expressing your 
concerns. Identical letters will be sent to your colleagues. I 
appreciate your continued support for our forest health and restoration 
program. Please do not hesitate to contact me at (202) 205-1657, if I 
can be of further assistance.
            Sincerely,
                                          Michael T. Rains,
                          Deputy Chief, State and Private Forestry.
                               __________
    Mr. Inslee. Thank you, Mr. Chair.
    Mr. McInnis. I might add that reductions that were just 
being talked about, it is my understanding those are reductions 
for 2002. Your firefighting season that is coming up here in a 
few weeks is not suffering. There is no cut in firefighting 
operations. Isn't that correct?
    Mr. Laverty. Correct.
    Mr. Inslee. I think the concern is historically what has 
happened, there has been a backloading of contingency in the 
next fiscal year, and what I am suggesting is, if this budget--
we shouldn't fool ourselves. If the fires occur this year like 
they are likely to occur, we are going to be looking at another 
$500 million in the next fiscal year to make up your 
contingency funds. Isn't that a fair statement?
    Mr. Laverty. Yes. Historically, our 10-year average would 
be about $423 million just on the force in terms of suppression 
costs. Last year we were over $1 billion.
    Mr. Inslee. Just as one Democratic modest partisan 
statement, this is the kind of issue we are concerned about in 
our tax cut vote today as well.
    Thank you.
    Mr. McInnis. I just want to make this clear, because I 
don't want there to be a set-up situation where a fire occurs 
and all of a sudden we hear from a slightly partisan point of 
view that we didn't adequately fund the Forest Service. Let me 
repeat the question. You have been fully funded for the 2001 
firefighting season. Isn't that correct?
    Mr. Laverty. That is correct.
    Mr. McInnis. Thank you.
    Now, Mr. Simpson?
    Mr. Simpson. Thank you, Mr. Chairman.
    Lyle, Tim, welcome to the Committee, and thank you for your 
testimony. I appreciate, Lyle, you keeping me informed of what 
is going on with the fire plan and the update of it. I was 
unaware that commercial harvesting was actually a bad thing, 
but I know we do do some of that stuff, and it actually can be 
used to help prevent fires.
    But since we have had a slide show today, let me just show 
you one slide show. This is what we are facing in Idaho. And 
while you can't predict an earthquake in Seattle, I can 
guarantee you you can predict one thing. This is going to burn, 
and it is going to burn very hot. And that is what we had last 
year on the Kerr Creek fire. And because we have not gone in 
and done the necessary thinning and so forth that is necessary 
to reduce the possibility of catastrophic wildfires--and I 
appreciate what you are doing in that area now and how we are 
going to be able to treat some of the lands and a few things 
like that and actually maybe some of them we may actually 
commercially cut a tree. Who knows? Somebody might want a two-
by-four in their house.
    But tell me about the consultation process that is going 
on. Are we having problems with that between different 
agencies, with NEPA, the NEPA process, and other types of 
things? As I understand it, talking to some of the local forest 
managers, we have got more biologists from NFS on the ground 
trying to have their say in what we are doing in these 
rehabilitation efforts and so forth. Are we using the 
categorical exclusions? And even when we have used some of 
those, I understand that they have complained that we shouldn't 
have used them and so forth. Could you talk to me a little bit 
about that?
    Mr. Laverty. Just a very quick response, Mr. Simpson. We 
are working right now with the Fish and Wildlife Service. 
Again, the funding for 2001 provided funding to the agencies to 
support the NFS and Fish and Wildlife Service Section 7 
consultation. We are working right now to move that money over 
to Fish and Wildlife Service to do that. The Fish and Wildlife 
Service is probably going to hire an additional 100 biologists 
to do this Section 7 consultation work.
    The processes are really not a problem for us. It is just a 
matter of having the staff to complete the process. And I think 
the Congress recognized that with the funding.
    Mr. Simpson. Well, let me ask just a follow-up. Is there 
something or anything that Congress needs to do to streamline 
this process so that we can actually do some of these 
rehabilitation projects and so forth?
    Mr. Laverty. Yes. Thank you for asking that question. One 
of the things that we are working on right now--in fact, Mr. 
McInnis is giving us some support--is we have a bill that will 
provide us the legislative mechanism that we can move those 
funds over to Fish and Wildlife Service. That is a problem for 
us as an agency. And with that out of the way, we will get that 
Section 7 consultation work done on most of the 2002 projects. 
So that will be a great help.
    Mr. Simpson. Thank you, and thank you for all that you have 
done on this.
    Mr. Laverty. Thank you.
    Mr. McInnis. Mr. Tancredo?
    Mr. Tancredo. Thank you very much, Mr. Chairman.
    Mr. Laverty, good to see you here today, sir. In the 
political world, in the elected political world, the presence 
of an individual who has the courage of his commitments and who 
lives up to them is somewhat rare. In the bureaucratic world, 
it is even more rare, I think. You are an exception to that 
rule. You, from my point of view, are an individual who does 
have the courage of his convictions and has expressed them 
articulately, not just here today but in my brief history I 
have had with you, that has been my observation. And I just 
wanted to essentially thank you very much for being a strong 
supporter of good forest management, even when that support 
could get you into trouble.
    The question I have for you is: Although I am encouraged by 
everything you have said in terms of the appropriations that 
have been made available to the agencies to suppress fire and 
to fight it, I am concerned about the degree to which you may 
be facing other obstacles, that is to say, more bureaucratic, 
more regulatory in nature. And if you could, sir--and if there 
isn't time today to complete your answer in a definitive way, 
even if you could submit to us some response on paper, that 
would be fine--I am interested in the Clean Air Act, NEPA, 
Endangered Species, roadless area, that sort of thing, where 
you may have all of the equipment now, you may have all of the 
firefighters in place, but not be able to do the job because of 
the regulatory burden.
    Mr. Laverty. Mr. Tancredo, one of the actions that Tim and 
I have been working with CEQ is to actually go out and do some 
field reviews in terms of the work processes that are going on 
with NEPA. We believe that there are some opportunities just 
for us to examine closely what we do and how we go about doing 
that work. We think there are some efficiencies to be gained 
there. In fact, Dinah Baird from CEQ has been very open with us 
about helping us, you know, find those ways that we can 
actually make NEPA work more effectively for us.
    I think those kinds of findings will help us integrate 
really a tapestry of laws that we all deal with. Between the 
laws and regulations, we need to figure out how can we make 
those things work effectively for us. Many times, you know, 
training is a key tool to help people understand here is what 
you have to do, and perhaps we are doing many times more than 
we really need to do. But I think as we go through those kinds 
of field reviews, we can learn from that and then make those 
adaptive changes in terms of our work processes to be more 
effective and efficient in terms of responding to the situation 
that we have.
    Mr. Hartzell. Congressman, Lyle and I also have an 
interdepartmental environmental compliance group that has 
members from both departments and other agencies that meets on 
a regular basis to look at existing regulations and procedures 
to make sure that there aren't any roadblocks in the process 
and to help us be more efficient.
    Let me just say that right now, from our perspective, we 
don't see any problems in meeting our fuels reduction acres 
because of regulations and environmental compliance. But one 
area we are interested in is possibly getting categorical 
exclusion status for rehab projects because they clearly are 
emergency in nature.
    Mr. Tancredo. Thank you both, gentlemen. Thank you, Mr. 
Chairman.
    Mr. Simpson. [Presiding.] Mr. Otter?
    Mr. Otter. Thank you, Mr. Chairman. Mr. Chairman, surprise.
    I have got just a couple of questions, and I know, Lyle and 
Tim, we have talked an awful lot about this, and I appreciate 
the time that you have spent with me as the bottom of the 
political food chain and being a freshman. But you have given 
me an awful lot of time. But there are a couple of things that 
I would like to ask you.
    Number one, where does the money go if we should actually 
get a return on a harvest? Where does that money go?
    Mr. Laverty. On the Forest Service side, those receipts go 
to the general treasury.
    Mr. Otter. And so couldn't that then be used to help fund 
future firefighting and also future planning and rehabilitation 
and your five-point program?
    Mr. Laverty. It goes into the big mix of the issues that 
you are dealing with on the Floor today.
    Mr. Otter. Okay. I think that is interesting because it 
seems to me that if you will recall, historically speaking, the 
Panhandle, the Clearwater, and Payett practically burned in 
total in 1914. Right? And then it was replaced by an invasive 
species or two, one fir and one a white pine. And their life 
cycle is about 90 years. Is that not right?
    Mr. Laverty. Ninety to 120 years.
    Mr. Otter. We are on the threshold right now. My point is 
this: We are at the threshold right now. And if you lock 
yourself into a management plan that said simply we are going 
to do this for fire prevention and we are at that threshold of 
90-year life for those trees right now today, wouldn't it be 
reasonable to go in and clear-cut that if you were only going 
to go fire prevention? Because they are going to die. And then 
they are dead, and then they are fuel.
    Mr. Laverty. I think maybe the short answer is that, 
depending on the situation, you want to take the right tool for 
that silvicultural treatment. It may or may not be a clear-cut. 
I would liken it to if you were a cabinetmaker, you want to 
have the right tool for that job. And I think the same way is 
true in terms of coming up with a silvicultural prescription 
depending on the outcome and the objectives that you are 
searching for. You want to use the right tool. In some cases it 
could be a clear-cut.
    Mr. Otter. My point is this: If they were thinned over a 
management period of time, allowing the trees a larger base per 
acre, wouldn't they be a lot less likely to have a fire, a 
devastating fire? A clear burn, let me say?
    Mr. Laverty. One of the issues--and I think the Lick Creek 
photo series that we showed indicates the changes that are 
taking place in those stand structures. When you do, in fact, 
have that density of stands, that is when you invite insects, 
you invite various types of disease as well. So keeping those 
stand conditions in a healthy, functioning capacity, you know, 
provides benefits not only of general forest health, but I 
think the whole watershed systems begin to function 
effectively.
    Mr. Otter. Okay. One final question, if I might, Mr. 
Chairman. Is there any chance that you can train the Army Corps 
of Engineers and the EPA and the U.S. Fish and Wildlife and 
National Marine Fisheries Service people that are on the ground 
out there to fight fire?
    Mr. Laverty. We get a lot of people from Fish and Wildlife 
Service as crews. We have used--I am not sure if we have used 
Corps of Engineer people, but we have a lot of interagency 
teams that bring people from all the agencies together.
    Mr. Otter. So cross-training is possible.
    Mr. Laverty. Oh, absolutely.
    Mr. Hartzell. There is nothing precluding that. As long as 
they meet our rigid physical standards and they take the 
training, they can participate.
    Mr. Otter. Thank you.
    Thank you, Mr. Chairman.
    Mr. Simpson. I think the ranking member has one question he 
would like to ask.
    Mr. Inslee. Thank you. I appreciate it.
    I want to tell you a concern I have. The concern is that we 
are going to repeat some mistakes of the past. Our fire 
suppression policy has resulted in the accumulation of fuel 
loads that have resulted in some of these catastrophic fires. I 
think that is abundantly clear.
    My concern is that when we get into some cataclysmic fires, 
which we may be back in that season again this year, that it 
will remove us from the long-term goal of getting back to a 
situation where fire is part of the natural cycle and we accept 
it as part of the natural cycle and we recognize that fire is 
necessary for a healthy ecosystem in the long term. Ponderosa 
pines developed with fire, and the only reason they are healthy 
is with fire.
    I guess the question is: How do we keep the twin goal of 
not allowing property damage in the West but realizing a long-
term goal which I think should be--and you tell me if it is--of 
getting to a point where we can accept fire as part of the 
natural ecosystem and a necessary part of one?
    Mr. Laverty. Mr. Inslee, I believe that the fire plan, the 
objectives are very, very consistent with what you described. 
But our challenge is how do we make those investments to bring 
that landscape back to that kind of a condition. And because, 
as we talked earlier, we have excluded fire from these 
landscapes for such a long time, we are no longer in the 
position because of the long-term effects of just letting 
nature take its course.
    In Colorado, we have an example of a fire that burned four 
years ago, and that fire, it cost the Denver Water Board $12 
million to clear the sediment out of the watershed reservoir 
because of the rain that came after that. It burned with such 
intensity that we actually changed the structure of the soil. 
It is going to take literally centuries for that to recover.
    The loss is not only in the function of that watershed, but 
at the same time we have lost the productive capacity of 
species habitat. And I believe that the goals that we have for 
the fire plan will allow us to begin making those kinds of 
treatments where we can keep fire in a more natural role that 
it plays on many of these landscapes across the interior West. 
However, that is not a simple answer because we now have this 
huge influx of people that want to live in this same type of a 
fire-adapted ecosystem, so the introduction of the human 
component makes that challenge much, much more difficult.
    Mr. Hartzell. Let me just quickly add that long-term fuels 
hazard management is the answer. It gives us options. It lowers 
fire intensity. It gives our firefighters more options when 
they do initial attack and respond to the fire. And that 
generally results in fewer resources and lower costs being 
needed for suppression.
    Mr. Laverty. I would love to take you out and show you some 
of the areas where we have done some treatments on the ground, 
and I think we can show you exactly what happens in terms of 
changing fire effects in treated stands. And it can be done in 
such an environmentally sensitive fashion that it really does 
accomplish, I think, the items that you have shared with us, 
and I appreciate your comments.
    Mr. Inslee. Thank you.
    Mr. Simpson. I appreciate that response and the fact that 
fire is a natural part of the ecosystem and will always be, and 
we are never going to put out all fires, nor should we put out 
all fires. But there are differences between catastrophic 
fires. We have in Idaho places from the 1910 fire where the 
soil is still sterile and nothing grows on it because it was so 
hot that it burned it--how far down was it?
    Mr. Otter. Eighteen inches.
    Mr. Simpson. Eighteen inches. So, anyway, I appreciate 
that.
    I would like to close this hearing today by taking a look 
at the weather, as was mentioned by the ranking member. Below 
normal precipitation to date throughout much of the Western and 
Southeastern States indicates that we may be in for a big fire 
season again this summer. This makes it essential that time is 
used wisely and efficiently in the near term, preparing for the 
thousands of newly hired firefighters because if we don't 
adequately train and equip those people, we are unjustly 
putting them in life-threatening positions, which, of course, 
is unacceptable.
    In the long term, we are looking at 73 million acres of 
Forest Service lands that are at high risk of catastrophic 
fires, more than a third of the national forest system. It will 
be a daunting task to reduce the hazards on these and other 
Federal lands, but a task we must accomplish.
    So the Subcommittee will continue in its bipartisan effort 
to scrutinize these and all other aspects of the National Fire 
Plan as it is implemented. I look forward to working with you 
as we work on this endeavor to make sure that we can address 
this issue.
    Does the ranking member have a closing statement?
    Mr. Inslee. Thank you very much.
    Mr. Simpson. I thank the witnesses on the second panel for 
their insight and the members for their questions. The members 
of the Subcommittee may have some additional questions for the 
witnesses, and we ask that you please respond to these in 
writing. The hearing record will be held open for 10 days for 
these responses.
    I would like to thank Mike Williams of the Subcommittee 
staff for his excellent work on this hearing.
    If there is no further business before the Subcommittee, 
the Chairman again thanks the members of the Subcommittee and 
our witnesses. The Subcommittee stands adjourned.
    [Whereupon, at 12:10 p.m., the Subcommittee was adjourned.]

                                   - 
</pre></body></html>
